No.

RIGINAL

0-

FILED
OCT 1 3 2020
°jPREEM(EFOOIjRTLMlj:K

-

IN THE

SUPREME COURT OF THE UNITED STATES

SOLOMON MANAMELA

— PETITIONER

(Your Name)
vs.

UNITED STATES "et al."

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SOLOMON MANAMELA
(Your Name)

MOSHANNON VALLEY CORR. CENTER

(Address)
555 CEO DRIVE
(City, State, Zip Code)
PHILIPSBURG > PA 16866
(Phone Number)

QUESTION(S) PRESENTED

1) Whether affirmative evidence exists to establish Congress' intention
under 18 USCS §24(b) to find City of Philadelphia-contracted non­
medical family support service provider, under Article VII of Pennsy­
lvania Public Welfare Code Title 55 of the Pennsylvania Code 55 PA
Code §3130.12(c)(1) guilty of health care fraud(18 USCS Sec.1347).
2) Whether. Manamela is liable for the death of DK(a minor) under MEBHI's
supervision pursuant to 42 Pa. Cons. Stat. Ann §6302; whereas, the
Civil Court ruled that under Pennsylvania and Third Circuit StateCreated-danger doctrine, Manamela and MEBHI were not culpable.
3) Whether New Jersey District Court erred by failing to. review doucume-.
nts(authentic documents such as Contract(s)) declared under penalty
of perjury pursuant to Title 28 USCS §1746; and allowing dismissal of
Manamela's Actual Innocent Petition as 2255 under disguise of 2241
under Rule 12(b)(6), and claiming "Lack of Jurisdiction."

LIST OF PARTIES
[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the
cover page.
A list of all parties to the proceeding in the court whose judgement
is the subject of this petition is as follows:
1) New Jersey District Court (Third Circuit)
2) The District Court (EDPA) (Third Circuit)

RELATED CASES
1) Kelly exrel. Gafni v. Multiethnic Behavioral Health, Inc. (herein­
after MEBHI)
2009 U.S. Dist. LEXIS 82385, Civil Action No. 08-3700 (ED PA
Sep. 9, 2009).
2) United States v. Manamela
(2012 CA 3 PA), 2012 U.S. App. LEXIS 2694, 463 F. App'x 127, 130
(3d Cir. 2012).
3) United States v. Manamela
612 Fed. Appv. 151; 2015 U.S. App. LEXIS 14465 No. 13-3676
(Judgement August 18, 2015).
4) Manamela v. Warden, Fort Dix, FCI
(D.C. Civil Action No. 1-18-CV-09292) (Judgement Nov. 27, 2019).
STATE-RELATED
5) Commonwealth of Pennsylvania v. Multiethnic Behavioral Health, Inc.
(2008) Mickael Kamuvaka and Julius Muraay were indicted for the
same crimes cited in this case; sentenced months after the criminal
court convictions of both including Manamela and Coulibaly.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

3-4
5-36

REASONS FOR GRANTING THE WRIT
CONCLUSION

37-38
39

INDEX TO APPENDICES

APPENDIX A

Opinion of the United States Court of Appeals

APPENDIX B

Opinion of the United States District Court

APPENDIX C

Sur Petition for Rehearing

TABLE OF AUTHORITIES CITED
CASES

Page Number

• Ashcroft v. Iqbal
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)...31
• Alston v. Parker
363 F. 3d 229; 2004 liJ.S. App. LEXIS 6425 (3d Cir. 2004)

32

• Bailey v. United States
516 U.S. 13/, 166 S. Ct. 501, 133 L. Ed. 2d 472 (1995)

34

• Bailey v. United States
133 S. Ct. 1031, 185 L. Ed. 2d 19 (2013)

23

• Bell Atlantic Corp. v. Tombly
S30 U.S. 544, 555, 12/ S. CtS 1955 167 L. Ed. 2d 929 (2007)....31
• Bennett v. City of Philadelphia
No. 03-5685, 2003 U.S. Dist. LEXIS 2389'7, 2003 WL 2309884 (3d
Cir. 2003)............................................
28, 36
• Bennett v. City of Philadelphia
499 F.3d 281 (3d Cir. 2007)....

28, 37

• Bond.vij-.iUnited States
564 U.S. 2ll, 131 S. Ct. 2355, 180 L. Ed. 2d 269 (2011)
• Bowyer v. United States
(1980) (Dist. Col. App.) 422 A 2d 973
• Bouie v. City of Columbia
378 U.S. 34/, 84 S. Ct. 1697, 12 L. Ed. 2d 894 (1964)

33
17, 32
32

* Brady v. Maryland
373 U.S. 83, 87, 88 S. Ct. 1194 10 L. Ed. 2d 215 (1963)...330, 31
• Bridges v. United States
346 U.S. 209, 9/ L. Ed. 1557, 73 S. Ct. 1055 (1953)

21

• Bright v. Westmoreland County
443 F.3d 276 (3d Cir. 2003)

28

• Bruce v. Warden, Lewisburg USP
868 F.3d 1/0 (3d Cir. 2017)

333^334'j,, 35

• Burrage v. United States
571 ,-134 S. Ct. 187 L. Ed. 2d 715, 2014 U.S. LEXIS 797 (2014)..25
• Calder v. Bull
3 U.S. (3 Dail.) 386, 390 (1798)

16

• Carmell v. Texas
529 U.S. 513, 146 L. Ed. 2d 577 (2000)

17

• Castle Rock v. Gonzalez
545 U.S. 748, 125 S. Ct. 2797, 162 L. Ed. 2d 658 (2005)

28

• Chew v. United States
8 Cir. 9 E.2d 348 U925)

20

• Cleveland v. United States
531 U.S. 12, 26 (2000)

19, 20

• Collins v. Youngblood
497 U.S. 8/, 41 (1990)

17

• Cummings v. Missouri
4 Wall 217, 18 L. Ed. 356 (1867)

32

• Davis v. United States
417 U.S. 333, 94 S. Ct. 2298, 41 L. Ed. 2d 109 (1974)

35

• Dennis v. United States
384 U.S. 855, 861, 16 L. Ed. 2d 973, 86 S. Ct. 1840 (1966)

24

* Deshaney v. WinnebagoiCounty Department of Social Services
489 U.S. 189, 109 S. Ct. 998, 103 L. Ed. 2d 249 (1989)
27, 28
• Douglas v. Buder
412 U.S. 430, 93 S. Ct. 2199, 37 L. Ed. 2d 52 (1973)
• In re Dorsainvil
119 F. 3d 245 (,3d Cir. 1997)

32
33, 34

• D.R. v. Middle Bucks Area Vocational Tech School
972 F.2d 1364, 1369 (3d Cir. 1992)

26

• Felker v. Turpin
518 U.S. 651, 116 S. Ct. 2333, 135 L. Ed. 2d 827 (1996)

29

• Foretich v. United States
U003 App. DC; 359 U.S. App. DC 54, 351 F.3d 1198 (2003)

32

• Fowler v. UPMC, Shadyside
578 F. 3d 203, 211 (,3d Cir. 2009)......................

31

* Castobile Fulginity v. City of Philadelphia
719 F. Supp. 2d 521, 526 (3d Cir. 20l0)....

27

• Fry v. United states
421 U.S. 542, 44 L. Ed. 2d 363, 95 S. Ct. (1975)

33

• Gammon v. United States
"8 Cir. 12 F. 2d 226 (.1926)

20

• Ex parte Garland
4 Wall 333, 18 L. Ed. 366 (1867)

12)

• Glasser v. United States
3l5 U.S. 60, 66, 86 L. Ed. 680, 62 S. Ct. 457 (1942)

24

• Goldstein v. United States
8 Cir. 63 F.2d 609 (1933)

20

• Haas v. Henkel
216 U.S. 462, 479, 54 L. Ed. 569, 30 S. Ct. 249 (1910)

24

• Haas, et al. v. United States
93 F.2d 427, 1973 U.S. App. LEXIS 2830

19

• Hammerschraidt v. United States
265 U.S. 182, 188, 68 L. Ed. 968, 44 S. Ct. 511 (1924)

24

• Hughey v. United States
49 U.Sr 411, 109 L. Ed. 2d 408, 331 F.3d 4483 110 S. Ct. 1979
(1990)
17
• James v. United States
366 U.S. 213, 247-248, 81 S. Ct. 1052, 1070-1071, 6 1. Ed. 2d at
246, 269-270 (1961) (1974 U.S. App. LEXIS 8)
32
• Imbler v. Pachtman
424 U.S. 409, 418, 47 L. Ed. 2d 128, 96 S. Ct. 984 (1976)

22

• In re Jones
226 F.3d 328, 333-34 (4th Cir. 2000)............................................

35

• Estate of Kelly exrel Gafni v. MEBHI, Inc.
2009 U.S. Dist. LEXIS 82385 (EDPA Sep./9, 2009)....................

passim

• Kelly v. United States, et al.
No. 18-1059 (.May 7, 2020) {3d Cir. 2020)...................................

.passim

• Landgraft v. US 1 Filmprods
511 U.S. 244, 114 S. Ct. 1483, 128 L. Ed. 2d 299 (1994)..

37

• Maio v. Aetna, Inc.
221 F.3d 472, 481 C3d Cir. 2000)........... .........................................

31

• Manamela v. Warden, Fort Dix, FCI
Case No. 19-3924 Dist. Court No. l-18-cv-09292 (2019)....

10

• Marshall v. Garrison
659 F. 2d 440' (1961 CA 4 VA)..................................... ..........................

33

• Martin v. Perez
319 F. 3d 799, 804-05 (6th Cir:.- 2003)........................

36

• McBoyle v. United States
283 U.S. 25, 75 L. Ed. 816, 51 S. Ct. 340 (1931)

20

• McNally v. United States
483 U.S. 350, 360......... .. .....................................................

19

• Miller v. Florida
482 U.S. 423, 429 (1987)

16

• Mooney v. Holohan
294 U.S. 103, 79 L. Ed. 791, 55 S. Ct. 340, 98 ALR 406 (1935)..31
• Morse v. Lower Marion SSchool District
132 F.3d 902, 907 (3d Cir. 1997)

26

• Myers v. United States
8 Cir. 15 F.2d 977 (1926)

20

• Nicini v. Morra
2l2 F.3d /98 (,3d Cir. 2000)

27

’ City of Philadelphia v. Commonwealth of Pennsylvania, et al.
508 F. Supp. 211; 1981 U.S. Dist. LEXIS 12046, Civ. A. No.
79-3833..............................................................................
7if 13, 23
• Rude v. United States
10 Cir., 74 F.2d 673, 677 (1936, 1937)

20

• Sanfordrv. Stiles
456 F.3d 298, 304 n.4 (3d Cir. 2006)

27

* Joseph George Sherman v. United States of America
356 U.S. 369, 2 L. Ed. 2d 848, 78 S. Ct. 819 (1958)

22

• Spencer.~v. Kemna
523 U.S. 1, 7, 118 S. Ct. 978, 140 L. Ed. 2d 43 (1998)

33

• Strickland v. Washington
466 U.S. 668 (1984)

38

• Townsend v. Sain
373 U.S. 293, 319 (1963)

30

• Weaver v. graham
450 U.S. 24, 28-29 (1981)

16

• Weston v. City of Philadelphia
3d Cir. EDPA May 16, 2014.........

28

• Yates v. United States
(Interpretation of Statutes) 135 S. Ct. 1074, 1081-82 (2015)...38
• Ye v. United States
484 F.3d 634, 638 (3d Cir. 2007)

28

• Yeaman v. United States
326 F.3d 293, 319 (1963)

30

• United States v. Addonizio
442 U.S. 178, 186>87., 99 S. Ct. 2235, 60 L. Ed. 2d 805 (1979)..35
• United States v. Argurs
427 U.S. 97 96 S. Ct. 2392, 49 L. Ed. 2d 342 (1976)

23

• United States v. Benoit
543 F. App'x l/l, 1/3 (3d Cir. 2013)

15

• United States v. Carol Anne Bond
581 F.3d 128, 139 (3d Cir. 2009)

33

• United States v. Brandt
913 F. 2d 201, 203 (,5th Cir. 1990)

17

• United States v. Burkley
(June 11, 1978)............ .

23

• United States v. Cotton
535 U.S. 625, 122 S. Ct. 1781, 152 L. ed. 2d 860 (2002)

23

• United States v. Gaudin
515 U.S. 506, 510, 132 L. Ed. 444, 115 S. Ct. 2310 (1995)

17

• United States v. Gelin
712 F.3d 612 (1st Cir. 2013)

14

• United States v. Hayman
342 U.S. 205, 96 L. Ed. 232, 72 S. Ct. 263 (1952)

31

• United States v. Hickman
282 F. Supp. 2d 528, 2003 U.S. Dist. LEXIS 15946 (SD Tex. 2003)
17
• United States v. Hill
444 F.2d 115 (1971, CA 10 Okla.)

23

• United States v. Jones
299 F. App'x 187, 189-90 (3d Cir. 2008)

15

• United States v. Jones
471 F.3d 478 479, 481, n.4 (3d Cir. 2006)

14, 15

• United States v. Jones
2007 EL 24644 78 at 3-4 (EDPA Aug. 17, 2007) Aff'd 299 F. App'x
187, 189-90 (3d Cir. 2008).................................................................... 15
• United States v. Louthian
756 F.3d 45 (2d Cir. 2003)

15

• United States v. Lucien
347 F.3d 45 (2d Cir. 2003)

14

• United States v. Malinsky
391 F. App'x 200, 201 (3d Cir. 2010)

15

• United States v. Manamela
(EDPA June 7, 2010)

5, 18

• United States v. Manamela
(2012 CA 3 PA)

21

• United States v. Manamela

^T5-TeT-5pp5Tr-T5T7—?I5T5~TJ.S. LEXIS 14465 No. 13-3676 (2015).21,27
• United States v. Manamela
463 F. Appx. 127, 130

25

• United States v. Marcus
130 S. Ct. 2159, 176 L. Ed. 1012, 560 U.S. 258, 20100U.S. LEXIS
4163 (2010 U.S.).................................................................................................... 32
• United States v. Martins
648 F. 2d 367 (.1981)

31

• United States v. McCoy
_4i0 F.3d 124, 131 (3d' Cir. 2005)

33

• United States v. Miller
(1985 CA 31- PA)

33

• United States v. Natale
719 F.3d 719, 733 (7th Cir. 2013)

15

• United States v. Payne
63 F.3d 1200 (2d Cir. 1995)

23

• United States v. Quackenbush
938 F.2d 1096, 1098 (10th Cir. 1991)

18

• United States v. Si
343 F.3d 116, 1112 (9th Cir. 2003)

31

• United States v. fanner
483 U.S. 107, 129-30 (1987)

passim

• United States v. Travillion
759 F.3d 281, 289 (3d Cir. 2014)

33

• United States v. Tyler
732 F.3d 241, 246 (3d Cir. 2013)

34

• United States v. Vasquez
319 F.2d 381, 384 (3d Cir. 1963)

21, 23

• United States v. Wayland
549 F.3d 526, 527 (7th Cir. 2008)..

15

• United States v. Whited
3li F.3d 259, 263-64 (3d Cir. 2002)

15

• United States v. Williams
113 F.3d 243 (1997) Dist. Columbia

23

• United States v. Wiltberger
5 LED 37, WHEAT 76 (1820)

19

TABLE OF STATUTES AND RULES CITED
STATUTES

Page Number

8 U.S.C.A. §237(a)(2)(iii)....

29

8 U.S.C.S. §1101(a)(43)(m)....

29

8 U.S.C.S., §1227(a)(2)(A)(iii)

29

18 U.S.C. §16...................................

29

18 U.S.C. §24(a)............................

passim

18 U.S.C. §24(b)............................

passim

18 U.S.C. §371.................................

passim

18 U.S.C. §666(a)(1)(A).............

19, 20

18 U.S.C. §924(c)(1)....................

34

18 U.S.C. §1343...............................

passim

18 U.S.C. §1347...............................

passim

18 U.S.C. §3363......................

17

18 U.S.C. §3363(A)........................

17

28 U.S.C. §1331...............................

38

28 U.S.C. §1746...

29

28 U.S.C. §2241...

passim

28 U.S.C. §2241(a)

4

28 U.S.C. §224l(c)

35

28 U.S.C. §2242...

4

• 28 U:;S.C. §2243. . .

4

• 28 U.S.C. §2254...

30

• 28 U.S.C. §2254(d)

30

• 28 U.S.C. §2255...

passim

• 28 U.S.C. §2255(e)

35

• 28 U.S.C. §2255(h)

34

• 42 U.S.C. §201....

15

42 U.S.C. §299b

15

42 U.S.C. §391

14

42 U.S.C. §601..

passim

42 U.S.C.S. §620

9, 13

42 U.S.C. §621..

9, 13

42 U.S.C. §622 ..........

9, 14

42 U.S.C. §629..........

9, 14

42 U.S.C. §629(a)(2)

passim

42 U.S.C. §670..........

6

42 U.S.C. §1320d-2..

15

42 U.S.C. §1395x

15

42 U.S.C. §1396

15

42 U.S.C. §1397

passim

42 U.S.C. §1397aa

15

42 U.S.C. §1397bb

15

42 U.S.C. §1397f.

13

42 U.S.C. §1397jj

15

42 U.S.C. §5611..

9, 14

42 CFR §440.70...

15

42 CFR §441.15.

15

42 CFR §483.460

15

45 CFR §260.10.

,9

45 CFR §260.20

9

45 CFR §260.30

9

45 CFR §260.31

9

• 45 CFR §1355.25

9

• 45 CFR §1357.10

9

• Rule 8 Evid. Hearing

30

Rule 12(b)(6)

passim

Rule 16(a) ...

31

Rule 52(b)...

37

STATE STATUTES
23 Pa C.S. §6315(a)(l)

8

Title 33 P.S. §1-8. . . .

37

Title 40 P.S. §part 1-5....

37

42 PA Cons. Stat. Ann §6302

passim

42 PA C.S. 6324.(1)..................

passim

Title 53 P.S. §Part 1-4. ...

37

Title VII PA Welfare Code

passim

55 PA Code §3130.12(c)(1)

passim

55 PA Code §3490.53(b)...

passim

62 P.S. §701-708 ..................

passim

Health Insurance Portability and Accountability Act of 1996,
110 Stat. 1936 (Aug. 21, 1996) (HIPAA).......................................... passim
Pennsylvania Medical Practice Act of 1985, 63 P.S. §422.10

15

OTHER AUTHORITIES
U.S. Cons. Art. 1 §9, Cl. 3.

passim

U.S. Cons. Art. 1 §10, Cl. 1

passim

U.S. Cons. Art III §2.............

38

U.S. Cons. Amendment V

3, 28, 37

U.S. Cons. Amendment VI

....3, 28

U.S. Cons. Amendment VII

3, 28

• U.S. Cons. Amendment X

passim

• U.S. Cons. Amendment XIV

passim

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgement below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears
at Appendix
A
to the petition and is
[ ] reported at ________________
; or,
[x] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.
The opinion of the United States district court appears
at Appendix
B
to : the petition and is
[ ] reported at ______________________________; or,
[x] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the
merits appears at Appendix
to the petition and is
[ ] reported at ______________________________; or,
[ ] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.
The opinion of the
at Appendix ______ to the petition and is

court appears

[ ] reported at _________ ____________________; or,
[ ] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.

1.

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was JUNE 11. 2020__________

[ ] No petition for rehearing was timely filed in my case.
[xl A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: JULY 15 f 2020
, and a copy of the
order denying rehearing appears at Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears, at Appendix______
[ 3 A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FIFTH AMENDMENT: Due process of Law and Just Compensation Clauses

. .

Nb person shall be held to answer for a capital, or otherwise infamous crime, un­
less on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public dan­
ger; nor shall any person be subject for the same offense to be twice put.in jeopardy
of life or limb; nor shall be compelled in any criminal case to be a witness against .
himself, nor be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
SIXTH AMENDMENT: Rights of the Accused
. In all criminal prosecutions, the accused shall enjoy the right to a speedy and pub­
lic trial, by an impartial jury of the State and District wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor, and to have
the assistance of counsel for his defense.
SEVENTH AMENDMENT: Trial by Jury in Civil Cases
In suits at common law, where the value in controversy shall exceed twenty dollars,
the right of trial by jury shall be preserved, and no fact tried by a jury shall be
otherwise re-examined in any Court of the United States, than according to the rules of
common law.
TENTH AMENDMENT:
The. powers not delegated to the United States by the Constitution, nor prohibited
by it to the States, are reserved to. the States respectively, or to the people.
FOURTEENTH AMENDMENT: Due Process of Law/Equal Protection
All persons born or naturalized in the United States, and subject to jurisdiction
thereof, are citizens of the United States and of the States wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without Due Process of Law; nor deny to any person within the jurisdiction
the equal protection of the laws.
SECTION 24(b) of HIPAA DEFINES A HEALTH CARE BENEFIT PROGRAM AS:
Any public or private plan or contract, affecting commerce, under which any medical
benefit, item, or service is provided to any individual, and includes any individual
or entity who is providing a medical benefit, item, or service for which payment may
be made under the plan or contract.
18 USCS § 24(b) (emphasis added).
THE STATUTES UNDER WHICH THE PETITIONER WAS PROSECUTED:
Section 1347 specifically outlaws health care fraud. It provides that:
(a) Whoever knowingly and willingly executes, or attempths to execute, a scheme or arti­

fice -

3.

(1) to defraud any health care benefit program; or
(2) to obtain, by means of false or fraudulent pretenses, representations, or promises,
any of the money or property owned by, or under the custody or control of, any health care
benefit program, in connection with delivery of or payment for health care benefits, items,
or services, shall be fined under this title or imprisoned not more than 10 years, or both.
If the violation results in serious bodily injury... such person shall be fined under this
title or imprisoned not more than 20 years, or both; and if the violation results in death,
such person shall be fined under this title, or imprisoned for any term of years or for life,
or both.
WIRE FRAUD [18 USCS §1343]:
The federal wire fraud statute makes it a crime to effect (with the use of wires) "any
scheme or artifice to defraud, or for obtaining money or property by means of false or fraud­
ulent pretenses, representations, or promises."
THE GENERAL FEDERAL CONSPIRACY STATUTE [18.USC §371] provides:
If two or more persons conspire either to commit any offense against the
United States, or to defraud the United States, or any agency thereof in any manner
or for any purpose, and one or more of such persons do act to effect the object of the cons­
piracy, each shall be fined under this title or imprisoned not more than 5 years, or both.
If, an offense or to defraud the United States are simply two alternative ways to commit
the single §371 offense.
28 USCS §2241 ’> provides that:
"Writs of habeas corpus may be granted by the US Supreme Court, any justice thereof,
the district courts and any circuit judge within their respective jurisdictions. 28 USCS
§2241(a). A §2241 petition should name as respondent the person who has custody over a
prisoner. 28 USCS §2242; 28 USCS §2243. These provisions contemplate a proceeding against
some person who has the immediate custody of the party detained, with the power to produce
the body of such party before the court or judge, that he may be liberated if no sufficient
reason is shown to the contrary." This "immediate custodian rule" is the default, and is
generally applicable to habeas petitions challenging physical custody. The rule governing
jurisdiction naturally follows from the "immediate custodian rule": a district court properly
exercises jurisdiction over a habeas petition whenever it has jurisdiction over the peti­
tioner's custodian.
28 USCS §2255 provides that:
A prisoner in custody under sentence of a court established by Act of Congress... may
move the court which imposed the sentence to vacate, set aside or correct the sentence.
Unless the motion and the files and records of the case conclusively show that the prisoner
is entitled to no relief, the court shall cause notice thereof to be served upon the United
States attorney, grant a prompt hearing thereon, determine the issues and make findings of
fact and conclusions of law with respect thereto. Habeas petitions are usually filed under
28 USCS §2255 in the court that imposed a prisoner's sentence. When §2255 appears inadequate
or. ineffective however, a federal prisoner may seek habeas relief from the court in the
district of his confinement under 28 USCS §2241.
42 USCS §629. SUBPART 2. PROMOTING SAFE AND STABLE FAMILIES
Purpose: " to enable states to develop and establish, or expand, and to operate co­
ordinated programs of community-based family support services, family preservation services,
time-limited family reunification services, and adoption promotion and support services..."
4.

STATEMENT OF THE CASE
In 1998, Solomon Manamela and three other principals co-founded Multi-Ethnic Beha­
vioral Health, Inc. (MEBHI hereafter), a family support service provider under Article
VII of Pennsylvania Public Welfare Code,Title 55 of Pennsylvania Code 55 PA. Code
§3130.12(c)(1) [Cf. Title IV-B Subpart 2, 42 USCS §629(a)(2) under the Act]; and pur­
suant to 42 Pa. Cons. Stat. Ann §6302; a non-medicare/medicaid/CHIP serviceable child
welfare service provider to at-risk children in the City of Philadelphia/County. MEBHI
apart from the above-cited PA Statutes, operated under the City of Philadelphia Children and Youth Department (CYD) and Department of Human Services (DHS) auspices pursuant
to 62 PS §§701-708 Pennsylvania Child Welfare Services Agreement Contract between the
City of Philadelphia and Commonwealth of Pennsylvania.
Mr. Manamela served as MEBHI's Services to Children in their own homes (SCOH) prog­
ram supervisor; SCOH Liason to DHS; Director of Staff Development and Training; Human
Resources; and Treasurer of Board of Directors. See Memorandum Opinion, United States
v. Manamela, (EDPA June 7, 2010). The "Behavioral Health: component was based on the
"Holistic approach" to amelioration of family dysfunctions prevalent in low-income atrisk children's homes the principals had hoped to focus on, had all plans of establish­
ing an institution of that nature succeeded - a "One-stop Shop" kind of social agency.
This assessment was also based on already identified endless DHS-SC0H failures in
addressing psychological, mental, and substance abuse inherent in many families referred
to SCOH social service providers in the City of Philadelphia. The principals had hoped
that one day MEBHI as a Minority Business Enterprise (MBE) member, will be able to raise
sufficient funds and support and apply for licenses in those areas/fields in order to
operate and provide services in the City of Philadelphia through other programs mention­
ed infra.
In and around 1999, MEBHI was awarded a Comprehensive Family Based Services Contract
by the City of Philadelphia, which was effective July 1, 2000. MEBHI contract with DHS/
, -t? P^ovi^e servlces to at-risk children. CYD is a DHS unit that is directly

5.

responsible for SCOH activities - "child .pendency-related issues" under Pennsylvania Child
Welfare Services Laws pursuant to 42 Pa. Cons. Stat. Ann §6302. MEBHI's contract with the
City was to "monitor" children and their families compliance as to Family Service, Plan
(FSP) or known as Child and Family Service Plan (CFSP) under Administration of Child and
Families (ACF), see 55 PA Code §3130.12(c)(1); cf. 42 USCS §§621 et seq.; 622; and 42 USCS
§629. See also "Brady materials" having a bearing on this very case, which the government
filed a Motion to Seal all these documents in 2013, and motion was granted by the lower
court (EDPA), all documents in government's possession since October 2006.
Initially, MEBHI was established to provide the following services:
(i).Employee Assistance Program (EAP).
(ii) Wraparound Services.
(iii) Drug and Alcohol including DUI Services.
(iv) Home Health Care Services.
(v) Mental Health Outpatient Services.
(vi) Services to Children in their Own Homes (SCOH).
However, due to lack of start-up funds and no sponsors or donors for such services/
programs, all good intentions of establishing a "One-stop Shop" failed; but SCOH as a
children welfare social services program did survive. See "Brief History of MEBHI" in NJ
Dist. Court's possession; see also hard and soft copies regarding "Home healthcare; mental
health outpatient; EAP; Wraparound Services; and Drug and Alcohol including DUI services"
programs in government's possession since October 2006, submitted to US Attorney's Office
by Manamela.
A. MEBHI IS A FAMILY SUPPORT SERVICE PROGRAM UNDER PENNSYLVANIA STATE CHILD
WELEARE LAWS
MEBHI is a community-based family support service under Philadelphia DHS and CYD Com­
prehensive Family Based Services Contract in compliance with Pennsylvania Child Welfare
Services Agreement Contract pursuant to 62 PS §§701-708. See Subpartl. Stephanie Tubbs Jones
Child Welfare Services Program... 42 USCS §§ 621 et seq.; Subpart2. Promoting Safe and Stable
Families... 42 USCS §§629; State-Plans for Child Welfare Services... 42 USCS §§622; State
Services program under Subtitle 1 of Title XX • • • 42 USCS §§1397; 42 USCS §670 et seq.; under
part E; and SCOH program funded under Part A • • • 42 USCS §§601.
The City and County of Philadelphia DHS is a political subdivision of the State or
Commonwealth of Pennsylvania under the auspices of the then Pennsylvania Department of Public
6.

Welfare, now, Pennsylvania Department of Human Services (DHS). Philadelphia as both City
and County, has entered into a Child Welfare Services Agreement Contract with the State of
Pennsylvania.
"Pursuant to this Contract, the City agreed to provide protective and Foster Care Ser­
vices to children found eligible by the County board of assistance while DPW agreed to pro­
vide technical consultation and assistance to the City, review periodically the City's deli­
very of these services and reimburse it for • • • carrying out the program." See City of Philadelphia v. Commonwealth of Pennsylvania et al., 508 F. Supp. 211; 1981 US Dist. LEXIS
12046, Civ. A. No. >9-3833.
As per Contract agreement with Commonwealth of' Pennsylvania to provide Child Welfare
Services to children in Philadelphia County, the City of Philadelphia DHS then entered into
a Comprehensive Family Based Services Contract with private community-based social services
agencies under SCOH program, in order to provide services to low-income at-risk children
and their families, a contract which MEBHI became one of those agencies that were chosen to
partake after applying and selected for the Contract. First, MEBHI*applied for SCOH Contract
in 1998; but because of MEBHI's inclusion of Mental Health Component in the Request for
Proposal (RFP) SCOH services application, the City's Contract Division rejected the appli­
cation noting that DHS was not a "Health Care Program". See 1998 SCOH RFP rejection letter
in Government's possession since October 2006. However, after second attempt in 1999, MEBHI
was awarded the SCOH contract • • • meaning MEBHI officially became a SCOH provider to lowincome at-risk children in the City. See Service Description and Contract Requirements for
Comprehensive Family Based Services Contracts - 1999, 2004 and 2006 in Government and Courtis
possession.
B. MEBHI AS A TITLE IV B FAMILY SUPPORT SERVICES PROVIDER UNDER CONTRACT WITH
DHS IS A STATE AGENT PURSUANT TO PENNSYLVANIA CHILD WELFARE SERVICES LAWS
[42 PA. CONS. STAT. ANN §6302]
Manamela and MEBHI SCOH social workers were charged with monitoring at-risk children
and advocating for third-party community-based program services on their behalf under
DHS-SC0H Contract whose focal point was safety, well-being, prevention and protection from
abuse, neglect, and abandonment. MEBHI was also charged with advocating for at-risk children
and their families in the following areas: housing, vocational training, parenting education
skills, medical, mental health, drug and alcohol inpatient and outpatient programs, monitor
7.

school attendance (including truancy issues), general academic performance; and make, sure
that children were well cared-for or supervised, and that families were compliant with
Family Service Plan (FSP) goals of requirement as per agreement with DHS/CYD and both Family
Division and Truancy Prevention Courts.
MEBHI provided SCOH services to at-risk children in the City and throughout Philadelphia
County as the "Supplier of the means without mandate" (emphasis mine) for DHS in implement­
ing Pennsylvania Child Welfare Services Laws, and as part of Contract Requirements for ComprehensiverFamily Based Services. As a contractor with the City of Philadelphia DHS and CYD,
MEBHI was also bound by Pennsylvania Child Welfare Laws such as Juvenile Act [42 PA. CS
§6324(1)]; Child Protective Services.Act [23 PA CS §6325(a)(l)]; see also 55 PA Code §3490,.
53(b) ("The County agency shall protect the safety of the subject child and other children
in the home... and shall provide or arrange appropriate services when necessary during the
investigation period.") in carrying out its contract obligations with the City.
Manamela and the entire SCOH social workers in the City of Philadelphia were State-agents
because of their connection with the DHS and CYD. Manamela and MEBHI SCOH workers were requi­
red by Pennsylvania Child Welfare Services laws to. report the at-risk children and their
families' progress or:lack of it to the DHS/CYD through a mechanism called Indirect/Collateral
services (by mail/fax/email/phone), family Division and Truancy Prevention Courts (in person
with caregivers in court) because a great number of these families were Court mandated.
Hence, the appearance of SCOH social workers in courts was a must. The judges wanted an up­
date from SCOH social workers about compliance with Family Service Plan (FSP) or family's
reluctance to comply or recommendation as to permanency issues. However, DHS/CYD ultimately
had the authority to continue services, close the case, or transfer family cases to for exam­
ple, Family Preservation Program (FPP). Also, DHS had the authority to remove and place c;
child(ren) with relatives or into Foster Care Homes after careful review of each individual
family situation. MEBHI's role was

just to recommend to DHS/CYD or the courts what was in

the best::interest of the child(ren) and thats all.
C. THE NEXUS BETWEEN MEBHI AND PHILADELPHIA DHS IS THE COMPREHENSIVE FAMILYY
BASED SERVICES CONTRACTS OF 1999, 2004 AND 2006 WHICH DO NOT REQUIRE ANY
HEALTH CARE PROVISIONS FROM SCOH PROVIDERS AS PER ARTICLE VII OF PA PUBLIC
WELFARE CODE AND TITLE 55 OF THE PENNSYLVANIA CODE §3130.12(c)(1) AND
8.

42 PA CONS. STAT. ANN §6302
"The goal of Comprehensive Family Based Services is the preservation of the family. The
goal reflects the premise that the family should be the first and best resource for nurturing
the. continued growth and development of its children and that removal of a child or children
from the setting should be done as a last resort and then for the shortest period of time
needed to restore the family." See Service Description and Contract Requirements for Compre­
hensive Family tBased Services: 1999; 2004; and 2006 SCOH Contracts, pages 2 and 3 respect­
ively .
The language expressed in these Contracts is reflected in the Federal Child Welfare Ser­
vices Statutes and regulations cited below. The language of the Comprehensive Family Based
Services Contracts is a true reflection of the Pennsylvania Child Welfare Services Laws; and
above all, of social work service delivery practice and policies in general, and concerned
with the Safety and Well-being of at-risk low-income children and their families, not health
care services provision superimposed on MEBHI by the Government, and contrary to clearly
stated requirements in Contracts.
In support of this fact, the following Federal Child Welfare Services Statutes and Reg­
ulations: 42 USCS.-§§601; §§620; §§621 et seq.; 42 USCS §§622; §§629 et seq.; 42 USCS §670
et seq.; and 42 USCS §1397 et seq.; 45 CFR §260.10; CFR §260.20; §260.30; §260.31; 45 CFR
§2355.25; 45 CFR §1357.10; and 42 USC §5611 to mention a few, are the Core Foundation of
Pennsylvania Child Welfare Services Laws. All these Federal Statutes and Regulations are
products of the Children's:Bureau established in 1912 by Congress now under Administration
of Children and Families Division within the Department of Health*'and’ Hemari Services (DHHS).
D. UNDER PENNSYLVANIA CHILD WELFARE SERVICES AGREEMENT CONTRACT PURSUANT TO
62 PS §701-708; ARTICLE VII OF PENNSYLVANIA PUBLIC WELFARE CODE AND TITLE
55 OF THE PENNSYLVANIA CODE 55 PA CODE §3130.12(c)(l); AND FEDERAL CHILD
WELFARE SERVICES STATUTES PURSUANT TO 42 USCS §§601; §§620; §§621; §§622;
§§629; §670; 42 USCS §1397; AND 5611, CITY OF PHILADELPHIA SCOH PROGRAM
IS NOT A HEALTH CARE BENEFIT PROGRAM AND SO IT IS A MEBHI SCOH PROGRAM
"The Philadelphia Department of Human Services' mission is to provide and promote Safety
and permanency for children and youth at-risk of abuse; neglect; and delinquency. Core values
include: Safety; Permamnency; Well-being; Respect; Competence; team Work; Accountability;
Transparency/Communication; and Trust." See Draft: City of Philadelphia, • • • Needs-based and
Budget for Fiscal Year 2009-2010 and Implementation PLan and Budget for Fiscal Year 2008-2009,
July 14, 2008 pg. 35 of 63.
Also, "The City and State are jointly responsible under Article VII of the Public Welfare
Code and Title 55 of the Pennsylvania Code 55 PA Code §3130.12(c)(1) for the achievement of
State children and youth performance goals and for assuring the availability of adequate
r; “
9.

children and youth social services for children at-risk for abuse, dependency, and delin­
quency. These partners are jointly responsible for assuring that children are properly super­
vised and attend school regularly." See page 21 of 63, Id.
The DHS Mission has been the guiding principle of all SGOHiproviders in the City of
Philadelphia such as MEBHI. This very mission statement takes its cue from the above-cited
federal Child Welfare Services Statutes including Regulations mentioned herein this case
before this Highest Court in the.-land, the only Court that is Constitutionally charged with
the task of clearing Constitutional and Statutory interpretation of Federal Laws and contro­
versies emanating from Federal Circuit Courts (conflicts between Circuits) and Federal Courts
and States.
Manamela asks this Honorable Court, the United States Supreme Court, which has juris­
diction over this case to review, Manamela v. Warden, Fort Dix, FCI, Case No.19-3924,
District Court Case No.: l-18-cv-09292. He asks the Supreme Court to review this case for
what it is, and remove the politics inherent in it; because this very case issa fruit of an
already poisoned tree - City of Philadelphia's DA's Office, Philadelphia Police Department,
and City of Philadelphia Department of Human Services, which resulted in Manamela's conviction
for

a Federal Health Care Fraud [18 USCS §1347]; Wire Fraud [18 USCS §1343]; and Conspiracy

to Commit an Offense against the United States Government, to be specific, [18 USCS §371].
A conviction that has violated his Constitutional and Substantial Rights, based on deliberate
misinterpretation of Federal Statute(s) and Pennsylvania Child Welfare Services Laws, mischaracterization of MEBHI's function and role in the lives of at-risk children and their
families, which Manamela views as ex post facto clause violation under US Constitution Art.
1, §9, Cl. 3; and Art. 1, §10, Cl. 1. Manamela is convinced and confident that this very
court, the highest in the land, will ultimately remove the politics.jand prejudice inherent
in this case for conviction's case.
I
A. HEALTH CARE FRAUD
On June 10, 2010, Manamela was sentenced to 168 months prison term; he was charged with
6 counts of health care fraud [18 USC §1347], a federal felony crime he assertively and veheiTl

10.

raently danies. He argues that he was and still is innocent of this very crime; because under
the Contract with the City of Philadelphia, MEBHI was not required to provide health or
medical care services to low-income at-risk children and their families. Manamela argues
that service Description and Contract Requirements for Comprehensive Family Based Services
contradicts the Government's assertion that MEBHI was/is a health care benefit service pro­
vider under federal law, and implies that it is too under Pennsylvania Child Welfare services
laws.
MEBHI, Manamela argues, was never a health care provider from inception. MEBHI was a
private community-based family support service provider under PA Child Welfare Services Laws
pursuant to Article VII of the Public Welfare Code and Title 55 of the Pennsylvania Code 55
PA Code §3130.12(c)(1); 42 PA Cons. Stat. Ann §6302; Juvenile Act 42 PA CS §6324(1); Child
Protective Services Act 23 PA CS §6315(a)(l) under Pennsylvania Child Welfare Services
Agreement Contract between City of Philadelphia and Commonwealth of Pennsylvania 62 PS §§701708.
In support of his Actual Innocence Claim, Manamela argues that the Government has deli'r
berately ignored the ''AuthenticcDocuments" in its possession - SCOH Comprehensive Family
Based Services Contracts of 1999 which was effective/July!1, 2000; 2004 effective July 1,
same year; and 2006 effective July 1, same year, submitted to US Attorney's office and spe­
cifically to AUSA Barbara/,Rowland by Manamela in and around October 2006, after Government
ordered MEBHI leadership to surrender Clients Charts/Files from 2005 to 2006, and all MEBHI
SCOH-related documents.
Ihe following is the excerpt from Service Description and Contract Requirements for Com­
prehensive Family Based Services addressing:: the most "crucial" element at the center of Mana­
mela and co-defendants' alleged crime "Health Care Fraud" - a felony charge imposed on Mana­
mela, and MEBHI SCOH Social Workers by the Government. Although page 2 of 1999 Contract is
valuable, page 3 is extremely valuable in that it helps distinguish MEBHI as a family support
service provider from the alleged health care benefit/service provider to at-risk children
and their families as claimed by the Government:,
11.

All Comprehensive Family Based Services are required to include five service components:
1) Family Assessment.
2) Counselling, intervention, and direct social services for members of client families.
3) Structured interventions that promote life skills development by members of client families.
4) Advocacy for acquiring, coordinating and monitoring the use of other community resources
needed to meet family needs.
5) Service management that plans, coordinates, monitors, documents, and reports on the client
family participation in the total array of services and other community resources.
Illustrations of the required components 3 and 4 of Comprehensive Family Based Services
include:
• Structured interventions that promote life skills development by member(s)tof client
families:
• Parenting Skills.
•Family Planning.
• Resource Management.
• Consumerism.
• Meal Planning.
•Preventive Health. • Vocational Planning.
• Advocacy for acquiring, coordinating, and monitoring
needed to meet family needs:
• Housing.
• Food.
>, Clothing.
• Education and
• Vocational Counselling and Training. • Vocational
• Mental Health.
• Drug and Alcohol. • Legal.
•
• Homemaker.

the use of other community resources
Special Education.
Rehabilitation.
• Health.
Employment. • Child Care.

Comprehensive Family Based Services does not include direct Services delivery of any of the
above illustrations of advocacy.
The language used in Services Description and Contract Requirements for Comprehensive
Family Based Services

clearly excludes any health care provision service delivery to at-risk

children and their families by MEBHI. The language of the Contract contradicts the Govern­
ment and its cooperating witnesses in this very case, the claim that MEBHI was required and
to ensure that MEBHI provides medical care to at-risk children and their families. Also, it
contradicts the Government's assertion and its unproven "beyond a reasonable doubt" claim
that MEBHI was a health care benefit service provider.
The duties and obligations

of the Pennsylvania counties to provide child welfare ser­

vices are set forth in 62 PS §§701-708. And it is that very law that brought about connection
between the City of Philadelphia and MEBHI via 1999; 2004; and 2006 Contracts, whose language
exclude any Direct Services of health care service delivery because under

the State Contract

Agreement with City of Philadelphia, both Mental and Medical Health care are non-reimbursible
because DHS is not a health care benefit entity.
SCOH "monitored" services as:to compliance of families to already established Family
Service Plan, and provide "oversight" regarding families' participation in third-party com12.

munity based service providers such as health centers/clinics/hospitals; schools, mental
health in/outpatient treatment programs, parenting skills, education programs, etc. connected
to at-risk children and their families - and all these programs including religious organ­
izations (churches) and extended family or relatives were considered collaterals or indirect
services on their own - meaning that without child or guardian being present during visits
with these relatives or institutions, there will be no payment.
42 USCS §601 states that the purpose of IV-A (Aid to Families with Dependent Children)
is to encourage "the care of such dependent children in their own homes or in the homes of
relatives by enabling each State to furnish financial assistance and rehabilitation and other
services, as far as practicable under the conditions in each State, to needy dependent child­
ren and the parents or relatives with whom they are living to help maintain and strengthen
family life and to help such parents or relatives to attain or retain capability for maximum
self-support and personal independence consistent with the maintenance of continuing parental
care and protection there is hereby authorized to be appropriated for each fiscal year a sum
sufficient to carry out the purpose of this part. The sums made available under this Section
shall be used for making payments to States which have submitted, and had approved by the
Board (Secretary), State plans for aid and services to needy families with children." See
City of Philadelphia v. Commonwealth of Pennsylvania, et al., 508 F. Supp. 221 (1981).
42 USC §620 states that the purpose of Title IV-B is to "enable the United States, .
through the Secretary, to cooperate with the State public welfare agencies in establishing,
extending and strengthening Child Welfare Service..." Id.
The purpose of Title XX is defined in 42 USC §1397 as being to encourage each state, as
far as practicable under the conditions in that State, to furnish services directed at the
goal of
1) Achieving or maintaining economic self-support to prevent, reduce, or eliminate dependency,,
2) Achieving or maintaining self-sufficiency, including reduction or prevention of
dependency,
3) Preventing or remedying neglect, abuse, or exploitation of children and adults unable to
protect their own interests or preserving, rehabilitating, or reuniting families,
4) Preventing or reducing inappropriate institutional care by providing for community-based
care, home-based care, or other forms of less intensive care, or
5) Securing referral or admission for institutional care when other forms of care are not
appropriate, or providing services to individuals in institutions.
Furthermore, 42 USCS §621 et seq. principles of child welfare services are further proof
that MEBHI is not a health care benefit provider:
1) Protecting and promoting the Welfare of all children.
2) Preventing the neglect, abuse or exploitation of children.
3) Supporting at-risk families through services which allow children, where appropriate, to
remain safely with their families or return to their families in a timely manner.
4) Providing training, professional development and support to ensure a well qualified child
welfare work-force.
The Federal Child Welfare Services Statutes cited above, clearly are reflected in the
Commonwealth of Pensylvania Child Welfare Services Laws; and in particular, 55 PA Code
§3130.12(c)(1) which binds DHS and MEBHI SCOH directly. 42 USCS §601, §620, and Title XX
13.

[42 USC §1397] including 42 USCS'§622, and 42 USCS §629, address both Child Welfare Service
delivery and the financial components of Child Welfare Services Laws to the State(s), and
making it clear that money allocated to the States is for the States to use based on their
Child Welfare needs - and in essence, that very money should be viewed as State money not
federal government's. Hence, all alleged health care fraud, wire fraud, and conspiracy charges
should be viewed through the States prism -in this case, Pennsylvania State Laws, and that
State based on the separation of powers in the Tenth Amendment, has the authority to pro­
secute MEBHI and Manamela, not the Government because the crimes alleged have nothing to do
with any Federal Government Agencies or Institutions.
"The fact that federal grants ultimately finance a large part of these welfare services
or that federal laws and regulations permit a State, as one of its options, to establish
a system whereby political subdivisions of the State deliver the services funded by the
federal grant does not mean that every dispute regarding these welfare services necessarily
involves an interpretation of federal law by the federal courts. Indeed, the instant suit
as between the Commonwealth and the City raises factual legal issues governed by State Law
and should be resolved in State Court proceedings." See also Kelly v. United States, et al.,
18-1059 (2020); and United States v. Tanner, 483 US 107, 129-30 (1987).
The history of Child Welfare Services as Federal Law under Title 42 Public Health and
Welfare §391, begins in 1912, with the establishment within the Department of Commerce and
Labor as Children's Bureau [now DHHS], see April 9, 1912, ch 73 §1, 37 Stat. 79. As a result,
the Federal States in support of Social Services or Child Welfare services were established:
42 USCS §601 [Title IV-A]; Subpart 1. Stephanie Tubbs Jones Child Welfare Services Program
[§§621 et deq., Purpose]; Subpart 2. Promiting Safe and Stable Families [42 USCS §629]; State
Plans for Child Welfare Services [42 USCS §622]; Child Abuse Prevention and Protection Ser­
vices [42 USC §5611]. MEBHI as a State-agent is guided by State Child Welfare Services Laws,
whose foundation is based on the above-cited Federal Child Welfare statutes.
The Government in its claim argues that "the defendants were paid to make sure these
children were seeing the doctor." Also argues that MEBHI was charged with collecting "medical
and immunization records of at-risk children", and because of that reason, MFRHT is a health
care benefit service provider. The Government's position was supported by the District Court
(EDPA)_by comparing MEBHI to Gelin and Lucien. See United States v. Gelin, 712 F.3d 612 (1st
Cir. 2013); United States v. Lucien, 347 F.3d 45 (2d Cir. 2003); see also United States v.
14.

Jones, 471 F.3d 478 (3d Cir. 2006); United States v. Jones, 2007 WL 246478, at 3-4 (WDPA
Aug. 27, 2007) afff'd 299 F.App'x 187, 189-90 (3d Cir. 2008); and United States v. Whited,
311 F.3d 259, 263-64 (3d Cir. 2002) (explaining the statute only covers defrauding a "health
care benefit program"). See United States v. Jones, 471 F.3d 478, 479, 481 n.4 (3d Cir. 2006);
United States v. Natale, 719 F.3d 719, 733 (7th Cir. 2013) ("[T]he government must prove a
link to a health care benefit program to secure conviction under §1035 and
care offenses");

other health

United States v. Louthian, 756 F.3d 295, 297 (4th Cir. 2014) (identifying

Medicare as a health care benefit program); United States v. Malinsky, 391 F.App'x 200, 201
(3d Cir. 2010) (noting defendants caused submission of "fraudulent claims for reimbursement
to health insurance companies."); United States v. Wayland, 549 F.3d 526, 527 (7th Cir. 2008)
(identifying medicaid as a health care benefit program); and United States v. Benoit, 545
F. Appi'.x 171, 173 (3d Cir. 2013) (noting bills for fraudulent services were submitted "to
several insurance companies!.')'.
The Government's argument "stretched the statute to cover activity beyond its plain
words" because there was "simply no type of misrepresentation made in connection .with delivery
of or payment for health care benefits." See Jones, 471 F.3d 478.
MEBHI as a family service provider was never a health care program under Contract with
the City of Philadelphia.
Manamela argues that under the Federal Health Care Programs, and to be specific, 42 USCS
§201 et seq.; 42 USCS §299b;-21; §1320d; §1320a-7; §§1395x; §§1396; §§1397aa; §§1397bb; §1397jj;
and as indicated in.its Contract with CYD/DHS, Comprehensive Community Based Family Service
Contracts, MEBHI is not a health care provider as purported by the Government and qualified
by the Third Circuit. Above all, MEBHI does not meet the 42 CFR §483.460; 42 CFR §440.70;
42 CFR §441.15 [Home Health Care Services], and the Pennsylvania Medical Practice Act of 1985,
63 PS §422.10 required conditions for participation in health care services as a communitybased family support service provider pursuant to Article VII of Pennsylvania Public Welfare
Code Title. 55 of the Pennsylvania Code 55 PA Code §3130.12(c)(1); and 42 PA Cons. Stat. Ann
§6302.
18 USCS §1347 makes it a crime to defraud a health care benefit program. A "health care
15.

benefit program" is defined as "any public or private plan or contract, affecting commerce,
under which and medical benefit, item or service is provided to any individual'..', 18’,USCS
§24(b). However, the health care fraud claim against Manamela et at., fails considerably.
It does not meet any of the Third Circuit Criminal Jury Instruction 6.18.1347 Instruction
44-14 Elements of the Offense. The Government did not prove its health care fraud claim beyond
reasonable doubt; because proof beyond reasonable doubt Standard bar was lowered due to
politics inherent in this case for conviction's sake.
The United States Constitution forbids Congress and State Legislatures from passing ex
post facto laws. See US Cons. Art. 1, §9, Cl. 3 (applicable to Congress); US Cons. Art. 1,
§10, Cl. 1 (applicable to States). Manamela's case applies to both prohibition laws because
it Originates from the State of Pennsylvania via the Philadelphia DA's Office in conjunction
with Philadelphia Police Department and was prosecuted by the Government as a "health care
fraud case" as opposed to what the DHS Contracts stipulated as being "Comprehensive Family
based Services" pursuant to Article VII of Public Welfare Code and Title 55 of the Pennsyl­
vania Code - 55 PA Code §3130.12(c)(1); 42 PA Cons. Stat. Ann §6302; Juvenile Act - 42 PA
CS §6324(1); and 62 PS §701-708.
The Classic definition of ex post facto law was set forth in Justice Chase's opinion in
Calder v. Bull, 3 US (3 Dali.) 386, 390 (1798):
"1st every law that makes an action done before the passing of the law, and which was
innocent when done, criminal; and punishes such action. 2d. Every law that aggravates the
Crime, or makes it greater than it was, when commited. 3d. Every law that changes the punish­
ment, and inflicts a greater punishment, that the law annexed to the crime, when committed.
4th. Every law that alters the legal rules of evidence, and receives less, or different tes­
timony, than the law required at the time of the commission of the offense, in order to
convict the offender."
"A law violates ex post facto clause if it: (1) punishes a crime an act previously com­
mitted which was not a crime when done; (2) makes more burdensome the punishment for a crime
after it has been committed; or (3) deprives a defendant of any defense available according
to the law at the time the charged act was committed. The ex post facto prohibition has two
principal purposes. First, it seeks to prevent legislatures from "enacting arbitrary or vin­
dictive legislation." Miller v. Florida, 482 US 423, 429 (1987). Second, it .endeavors "to
assure that legislative Acts give fair warning of their effect and permit individuals to rely
on their meaning until explicitly changed." Weaver v. Graham, 450 US 24, 28-29 (1981). Two
elements must exist for there to be a violation of ex post facto clause violation (emphasis
mine). First, the law "must be retrospective, that is, it must apply to events occuring
before its enactment." Weaver, 540 US at 29. Second, the law must be a penal statute that
16.

disadvantages those affected by it." See Collins v. Youngblood, 497 US 37, 41 (1990).
SUFFICIENCY-OF-THE-EVIDENCE STANDARD
"Law restrospectively reducing quantum of evidence required to convict offender is in
violation of Constitution's ex post facto prohibitions (Art. 1, §9, Cl. 3; Art. 1, §10, Cl.
l))as are laws retrospectively eliminating elements of offense, increase, punishment for ex­
isting offense, or lowering burden of proof, for in each of these instances, government sub­
verts presumption of innocence by (l) reducing number of elements that government must prove
to overcome that presumption, (2) threatening such severe punishment so as to reduce plea to
lesser offense or lower sentence, or (3) making it easier to meet threshold for overcoming
presumption..." Carmell v. Texas, (2000). "Judicial Opinion which changes necessary proof by
requiring less testimony than law required at the time of commission of offense may have
effect of ex post facto law." Bowyer v. United States, (1980) Dist. Col. App., 422 A26 973.
"A defendant is entitled to have all essential elements of a charged offense submitted
to a jury and proven beyond a reasonable doubt." See United States v. Gaudin, 515 US 506,
510, 132 L. ed. 444, 115 S. Ct. 2310 (1995). However, in this very case, the Government was
never required to prove its case-in-chief beyond a reasonable doubt. The Jury was made to
presume the Manamela et al., health care fraud scheme was to submit false claims to health
insurers (emphasis mine). The Government failed to prove that the "scheme" primarily targeted
medicare/medicaid which could have been problematic, in that MEBHI SCOH Contract with City
of Philadelphia CYD/DHS as reflected in 1999; 2004; and 2006 Contracts has/had nothing to do
with health care service delivery but dependency-related. See United States v. Hickman, 282
F. Supp, 2d 528, 2003 US Dist. LEXIS

15496 (SD Tex. 2003) (ex post facto clause violation

claim). Furthermore, "the government must provide proof of some effect on interstate com-,
merce" to show that defendants' actions violated a Statute that has an "Affecting Commerce"
like requirements, 282 F. Supp. 2d 528, 2003.
Also, the District-Court ordered Manamela to pay restitution for his crimes in the amount
of $1,216,000 pursuant to 18 USC §3363A. This amount of restitution included $1,900 for
counts 1 to 19 of indictment. In Hughey,v. United States, 495 US 411, 109 L. Ed. 2d 408, 331
F.3d 4483 110 S.Ct. 1979 (1990), the Supreme Court held that the.Victim and Witness Protection
Act of 1992, which is the Statutory basis of §3363, authorized and award restitution "only
for the loss caused by the specific conduct that is the basis of the offense of conviction."
Id. at 413; see also United States v, Brandt, 913 F.2d 201, 203 (5th Cir. 1990) [2003 US
App. LEXIS 23] (remanding a case for proper calculation of restitution under Hughey when the
17.

district court improperly sentenced the defendant to an amount of restitution that was broader
than the offense for which the defendant was convicted). See United States v. Quackenbush,
938 F.2d 1096, 1098 (10th Cir. 1991) (holding that imposition of restitution for losses not
related to the crime of conviction was plain error.) Therefore, the health care fraud charges
under 18 USCS §24(b) and 1347; 1343, and 371 must be reversed because they are based on ex
post facto laws in violation of US Cons. Art. 1, §9, Cl. 3;.'and Art. 1, §10, Cl. r,all alleged
Federal Statute laws violations against Manamela based on false premise; ard political in
nature, and ignorer. the„MEBHI-DHS SCOH Contracts and City of Philadelphia in implementing
Commonwealth of Pensylvania Child Welfare Services laws.
The ex post facto error in this case before the Court, has affected Manamela's substan­
tial and Constitutional rights; because it affected the outcome of the district court pro­
ceedings, and thus Manamela's conviction in violation of ex post facto clause constituted
plain error. ^Federal R. Crim. P. 52(b) permits and Appellate Court..to recognize a plain
error that affects substantial rights even if the claim of error was not brought to the
district court's attention. The language of the Contracts, in the light of both legal and
general usage, shows conclusively that health care services provision were not intended to
be embraced therein.
B. WIRE FRAUD [18 USCS §1343]
Manamela was charged with 12 counts of Wire Fraud [18 USCS §1343]. In essence, Manamela
was literally charged with the "scheme to defraud the United States Government", which is a
federal felony charge that helped increase his prison term to 168 months. It is a crime
which Manamela vehemently denies.
In his opening remarks as to this case, the presiding US District Court Judge (EDPA),
Judge Steward Dalzell, made a very strong and prejudiced statement against MEBHI without
full grasp of the facts surrounding this case at bar:
Multiethnic is a big scheme, it was not founded on the principle of providing services
to at-risk children but to defraud the Government [Federal Government]... MEBHI was not
about service delivery from its inception; but to create jobs in order to milk the Government
to the tune of $3.6 million." See both pretrial and trial court transceipts in United States
v. Manamela, (2010).
18.

In Kelly v. United States, et al., No. 18-1059 (May 7, 2020), it is clearly stated
during US Supreme Court deliberations that:
"The Federal wire fraud statutes make it a crime to effect (with the use of wires) "any
scheme or artifice to defraud, or for obtaining money or property by means of false or fraud­
ulent pretenses, representations, or promises. 18 USCS §1343.
Also, the Court states that federal program fraud statute bars "obtaining by fraud" the
"property" (including money) of a federally funded program or entity. §666(l)(l)(A). These
statutes the Court argued that are "limited in scope to the protection of property rights;;,"
and do not authorize federal prosecutors to "set [] standards of disclosure and good govern­
ment for local and state officials." McNally v. United States, 483 US 350, 360. So under
either provision, the government had to show not only that Baroni and Kelly engaged in decep­
tion, but that an object of their fraud was money or property. Cleveland v. United States,
631 US 12, 26.
"The crime denounced by the statute is mailing, telephoning, and faxing false information,
misrepresenting, mischaracterization of SCOH social workers in executing or attempting the
scheme. If the scheme was devised prior to the time MEBHI was awarded a. contract and the
notices of the scheme were mailed in execution of it, the crime was then complete whether
those to be defrauded were actively defrauded or not." See Haas et al. v. United States,
93 F.2d 427; 1973 US App. LEXIS 2830.
------------------------------------------In this instant case before the Court, the Government claims that: (l) Manamela and MEBHI
SCOH social workers failed to ensure that at-risk children receive medical care.
"It would be dangerous, indeed, to carry the principle, that a case which is within the
reason or mischief of statute, is within its provisions, so far as to punish a crime not
enumerated in the statute, because it is of equal atrocity, or kindred character, with those
which are enumerated. If this principle has ever been recognized in expunding criminal law,
it has been in cases of considerable irritation which it be unsafe to consider as precedents
forming a general rule for other cases," (quoting Justice Marshall when delivering opinion
of the Court in 5 LED 37, WHEAT 76, United States v. Wiltberger).
This is exactly what the Philadelphia DA and the Government did out of desperation and
irritation to punish MEBHI and Manamela et al.; because the State was unable to indict Mana­
mela in DK's case. Hence, the health care fraud was used to prosecute and convict him based
on false Federal Statute and Mischaracterization of MEBHI's Function and Role in the lives
-? :-o£_.?at^fisk- children, including using false evidence to boost their case-in-chief.
"The rule that the penal laws are to be construed strictly, is perhaps not so much less
old than Construction itself. It is founded on tenderness of the law for the rights of indi­
viduals; and on the plain principle that the power of punishment is vested in the legislative,
19.

not the court, which is to define a crime, and ordain its punishment.” Id.
Also see Rule of Construction; 1 USCS §4; An "Airplane is not a Motor Vehicle” in
McBoyle:-V. United States, 283 US 25, 75 L.Ed 816, 41 S. Ct. 340 (2931). As per Contract
between City of Philadelphia and MEBHI, the Comprehensive Family Based Services Contract
pursuant to Article VII of the Public Welfare Code and Title 55 of Pennsylvania Code 55
PA Code §1330.12(c)(1), MEBHI is not a health care provider.
Two of MEBHI members/employess, Dr. Kamuvaka (supervisor in DK's case) and J. Murray
(the social worker, charged with monitoring Kelly family) were indicted on August 5, 2008 at
State-level, and sentenced to 13% years for DK's death, while serving time in Federal
Prison for the same reasons charged with in Federal Criminal Court.
Furthermore, Manamela argues that Government has failed to show: "(1) the name(s) or
descriptions of the person or persons who made false pretenses; (2) how, that is what manner,
by oral, printed, or written statement or statements, the alleged false and fraudulent pre­
tenses, representation, and promises were made or caused to be made by the defendants;
(3) what false and fraudulent pretenses, representation, and promises were made or caused to
be made by the defendants in lieu of the conclusion that said alleged false and fraudulent
pretenses, representations and premises were "to the effect” of certain matters and [1937
US APP. LEXIS 17] things as alleged in the indictment." See Myers v. United States, 8 Cir.,
15 F.2d 977, 985; Goldstein v. United States, 8 Cir. 63 F.2d 609, 612.
"It follows that one must be convicted, if at all, on the scheme alleged and if the
scheme is not substantially established by the proof he cannot be convicted." See Gammon v.
United States, 8 Cir. 12 f.2d 266; Rude v. United States, 10 Cir. 74 F.2d 673, 677 (1936,37);
and Kelly v. United States, et al.i, No: 18-1059. (3d Cir. 2020).
"Unless the scheme to defraud existed prior
scheme-related materials, the mailing, wiring of
mails under section [1937 US App. LEXIS 273] 215
States, 8 Cir. 9 F.2d 348, 352; Gammon v. United

to the dates of the mailing
them could not constitute a
Criminal Code 18 USCA 338."
States, 8 Cir. 12 f.2d 226,

of the notice
misuse of the
Chew v. United
IW.

The wire fraud statutes thus prohibits only deceptive "scheme to deprive [the victim of]
money or property." Kelly v. United States, et al., (2020), at 356. Similarly, the federal
program fraud statute bars "obtaining] by fraud" the property

(including money) of a

federally funded program or entity like the Port Authority. §666(a)(l)(A). So under either
provision, the Government had to show not only that Manamela [whom the Government acknowledged
in their assessment or claim.that "they know he visited clients"] and MEBHI et al. engaged
in deception, but that an "object of the[ir] fraud [was] 'property'". Cleveland v. United
States, 531 US 12, 26 (2000). Manamela as SC0H supervisor was not required to visit by the
20.

Contract; but he visited so he could see for himself what was actually happening in these homes.
The Government in this very case does not specify exactly "the object of fraud". However,
it does throw around almost everything to justify federal fraud under 18 USCS §1343. The
question arises whose money and property Manamela and MEBHI SCOH workers were after? Was it
the Federal Government's or City or Commonwealth of Pennsylvania, or private donors' contri­
bution money to DHS at-risk children's issues? The other question is since the case-in-chief
[health care fraud], who;- were Manamela and MEBHI's SCOH victims, Federal health care program(s), State of Pennsylvania Child Welfare Services, or City of Philadelphia CYD, DHS, or
at-risk children and their families under MEBHI supervision? Definitely the object of the
fraud cannot be both child welfare services (SCOH) or healthcare services; because that would
clearly indicate double-dipping h that would imply that MEBHI as an agency was providing i
both family support and health care services at the same time to at-risk children and their
families under DHS Contract, a prohibited and illegal practice in the Commonwealth of
Pennsylvania. Sadly enough, that is what the Government has done in this case - killing two
birds with one stone.
C. CONSPIRACY TO OBSTRUCT A MATTER WITHIN THE JURISDICTION OF A FEDERAL
AGENCY [18 USC::§371]
The Supreme Court held in United States v. Tanner, 483 US 107, 129-30 (1987), that "a
conspiracy to defraud a third party that merely received financial assistance and some super­
vision from the United States was not itself a conspiracy "to defraud the United States"
except under unusual circumstances," see Bridges v. United States, 346 US at 215, 224. Fraud
is an essential element of the offense. See also United States v. Vasquez, 319 f.2d 381, 384
(3d Cir. 1963).
The general conspiracy section of the criminal code 18 USCS condemns two types of cons­
piracies: "one, to commit substantive offenses against the. United States specified other sta­
tutes. The other to defraud the United States. The latter conspiracy isritself the substantive,
offense, and a count of indictment drawn under it need to refer to no other statute other
than §371. It is not restricted to acts that cheat the United States in:,a pecuniary manner or
in a manner concerning property. It is broad enough to encompass the interfering with, obs­
tructing or the depriving it of one of its lawful administrative functions by deceptive means
or means that are at least dishonest, except under unusual circumstances." See 319 f.2d 381.
The. essence of the conspiracy charge in this particular case is that Manamela as a MEBHI
co-founder and SCOH supervisor was engaged in falsification of SCOH records, backdating/back­
tracking of reports intended for City of Philadelphia DHS and CYD. See United States v. Manamela, (2012 CA 3 PA). See also United States v. Manamela, 615 Fed.Appx. 151, 2015 US App.
LEXIS 14465 No. 13-3676.
21.

In Tanner 97 L. Ed. 2d 90, 107 S. Ct. 2739, the Supreme Court held that: "a conspiracy
to defraud a corporation owned and operated by several rural distribution cooperatives is not
itself a conspiracy to defraud the United States so as to support a criminal conviction under
18 USCS §371, even though the corporation receives financial assistance and some supervision
from the United States, because (l) §371 covers conspiracies "to defraud the United States,
or any agency thereof", a phrase which fails to describe the corporation; (2) the Federal
Government, rather than seeking a particular interpretation of ambiguous statutory language,
is asking the United States Supreme Court to expand the reach of a criminal provision by
reading new language into it, which the Supreme Court cannot do; (3) even if the Federal Government s interpretation of §371 could be pegged to some language of §371, the government has
presented nothing to overcome the Supreme Court's rule-.that any ambiguity concerning the
ambit of criminal statutes should be resolved in favor of lenity; (4) no aid in support of
the Federal Government's interpretation can be wrestled from the legislative history of §371;
and (5) the Federal Government's proposed test - based upon a substantial ongoing Federal
Supervision of a defrauded intermediary - is unable to provide any real guidance, given
(a) the immense variety of ways the Federal.-Government provides financial assistance, and
(b) the fact that such assistance is always accompanied by restrictions on its use."
See historical background of case in 483 US 107, 129-30.
As indicated in this very case, Manamela's company had a contract with City of Philar
delphia as per Pennsylvania Child Welfare Services Agreement Contract between City and
Commonwealth of Pennsylvania, 5and because of that very fact, Manamela and entire MEBHI SCOH
social workers were state-agents. In addition, dependency proceedings clearly serve "as ad­
vocate for the State", Prbler, 424 US at 430-3 in 33, in a capacity that is "intimately asso­
ciated with the judicial phase of the [child protection] process." 424 US at 430. Manamela
' a ^asialsocialrworker, supervisor, and co-founder of MEBHI, his role in at-risk children's lives
should be viewed as Commonwealth of Pennsylvania's state agent, who was charged as per Con­
tract, with the responsibility of implementing Pennsylvania Child Welfare Services laws and
policies; and not health care services.
Manamela argues that the Government in its endeavor to bolster its case-in-chief against
MEBHI et al., entrapped him using Sukunthea Chen by wire tapping him and this was around
April 2009, about 2 weeks before Manamela, Kamuvaka and Coulibaly were indicted. Chen called
Manamela asking him to meet him regarding some documents he had [no description] from Dr.
QP, and Manamela asking him whether he has consulted a lawyer as to these documents. April
30, 2009, Manamela was indicted. See Court transcripts as to this matter.
The attempted scheme to entrap Manamela did not succeed; and what the FBI intended to do
with the help of Chen was not agreed upon and did not materialize. Hence, the concocted
"conspiracy" was incomplete. See Joseph George Sherman v. United States of America, 356 US
22.

369, 2 L.Ed 2d 848, 78 S. Ct. 819 (1958); United States v. Hill, 444 F.2d 115 (1971) CA 10
Okla.; See also United States v. Barkley, (1978) [indictment |; investigating false charges:
Bailey v. United States, 516 US 137, 166 S. Ct. 501, 133 L. Ed 2d 472 (1995); Entrapment:
United States v. Williams, 113 F.3d 243 (1997) (United States Court of Appeals of the District
of Colombia); Bailey vTUnited States, 133 S. Ct. 1031, 185 L. Ed. 2d 19 (2013); United
States v. Argurs, 427 US 97, 96 S. Ct. 1392, 49 L. Ed. 2d 342 (1976); United States v. Payne,
63 F.3d 1200 (2d Cir. 1995); United States v. Cotton, 535 US 625, 122 S. Ct. 1781, 152 L. Ed.
2d 860 (2002); and United States of America v. Vasquez, 319 F.2d 381 (2d Cir. 1963).
In City of Philadelphia v. Commonwealth of Pennsylvania, et al., (1981), City of Phila­
delphia filed a suit alleging violations of Title IV-B and Title XX of the Social Security
Act, 42 USCS §620-626, 1397-, 1397f. The City filed suit when Pennsylvania Department of
Public Welfare failed to reimburse the City for its expenditures related to a social service
program as required by the parties' child welfare service agreement. The Court granted def­
endants (Commonwealth of Pennsylvania, Governor of Pennsylvania, Secretary of Pennsylvania
Department of Public Welfare, Tceasurer of Pennsylvania, and Secretary of Health and Human
Services) Motion to Dismiss, finding that the language of the federal statutes defendants
allegedly violated did not create a private cause of action by the City, and such a cause of
action could not be implied because it was those in need of welfare services, rather than
the City that comprised the class of people for whose benefit the statutes were enacted.
"The faettthat Federal grants ultimately finance [1981 US Dist. LEXIS 16] a large part
of these welfare services or that federal laws and regulations permit a state as one of its
options, to establish a system whereby political subdivisions of the State deliver the ser­
vices funded by the Federal grant does not mean that every dispute regarding these welfare
services necessarily involves interpretation of federal law by the Federal Courts. Indeed,
the instant suit as between the Commonwealth and the City raises factual and legal issues
governed by State law and should be resolved in State Court proceedings." Id.
In Tanner, the Court argued that: "to the extent the evidence established a conspiracy
by petitioners to defraud Seminole, their action did not violate §371, which prohibits conspiracies to "defraud the United States, or any agency thereof." The Government's argument
that Seminole, as the recipient of federal financial assistance, and the subject of federal
supervision, must be treated as "the United States" under §371 is untenable, in light of the
statute's plain and unambiguous language and the Government's concession that Seminole is not
an "agency" thereunder, and in the absense of any indication in the legislative history that
§371 should be expanded to cover conspiracies to defraud those acting on behalf of the United
States. Given the immense variety of federal assistance arrangements, the Government's
suggested requirement that there be "substantial ongoing federal supervision" of the defrau­
ded non-governmental intermediary before a crime against the United States occurs fails to
provide any real guidance. However, to the extent that the evidence is sufficient to estab­
lish that petitioners conspiraced. to cause Seminole to make misinterpretations to the REA,
petitioners' §371 conviction may stand. On remand, the Court of Appeals must consider the
sufficiency of evidence on this charge."
Title 18 USC §371 [18 USCS §371] provides,^-in relevant part:
23.

"If two or more persons conspire either to commit any offense against On-itediStates or
to defraud the United States, or any agency thereof in any manner or for any purpose, and one
or more of such persons do any act to effect the object of the conspiracy, each shall be
fined not more than $10,000 or imprisoned not more than five years, or both."
Furthermore, the Court stated that "Section 371 is the descendant of and bears a strong
resemblance to conspiracy laws that have been in the Federal Statute books since 1867." See
Act of, arch 2, 1867, Ch 169, §30, 14 Stat. 484 (prohibiting conspiracy to "defraud the Uni­
ted States in any manner whatever."). Neither the original 1867 provision nor the subsequent
reincarnations were accompanied by any particularly illuminating legislative history. This
case has been preceeded, however, by decisions of this Court interpreting the scope of the
phrase "to defraud... in any manner or for any purpose." In these cases we have stated re­
peatedly that the fraud covered by the statute "reaches any conspiracy for the purpose of
impairing, obstructing or defeating the lawful function of any department of Government."
Dennis v. United States, 384 US 855, 861, 16 L. Ed. 2d 973, 86 S. Ct. 1840 (1966), quoting
Haas v. Henkel, 216 US 462 54 L. Ed. 569 30 S. Ct. 249 (1910); see also Glasser v. United
States, 315 US 60, 66, 86 L. Ed. 680, 62 S. Ct. 457 (1942); Hammerschmidt v. United States,
265 US 182, 188, 68 L. Ed. 968, 44 S. Ct. 511 (1924).
We do not reconsider that aspect of the scope of §371 in this case. Therefore, if peti­
tioner's actions constituted a conspiracy to impair the functioning of the REA, no other form
of injury to the Federal Government need be established for the conspiracy to fall under §371.
The indictment against Manamela and co-defendant (Kamuvaka) charged them with having
conspired "to defraud the United States by impeding, impairing, obstructing and defeating
the lawful functions of the Commonwealth of Pennsylvania Health Care Program in its adminis­
tration and anfbecanait.of its federal agents, in this case, 42 USCS §601 Title IV-A and
§1397-1397f Federal Block Grants." Manamela argues that if the evidence adduced at trial es­
tablished a conspiracy to defraud, then the target of that conspiracy was Commonwealth of
Pennsylvania; Pennsylvania State Child Welfare Services Program or City of Philadelphia, and
a conspiracy to defraud a State political subdivision receiving financial assistance from
the Federal Government via State in this case, does not constitute a conspiracy to defraud
the United States. [Under separation of powers, State of Pennsylvania is not United States
Agency nor Federal Government department]. Also, for the fraud §371 to stand, it must be
linked to the case-in-chief health care fraud [18 USCS §1347 and §1343] reflecting wire fraud
activities connecting to health care service delivery; because as alleged in the Government
case against Manamela and MEBHI, health care is the target of the fraud - "the scheme to
defraud the United States Government." Therefore, the Court must reject the Government's
interpretation of §371 fraud charge against him; because it has nothing to do with federal
health care program(s) but Pennsylvania Child Welfare Services Program.
24.

II
WHETHER MANAMELA IS LIABLE FOR DK'S DEATH, WHEREAS THE CIVIL COURT RULED
THAT UNDER PENNSYLVANIA AND THIRD CIRCUIT STATE-CREATED DANGER DOCTRINE
MEBHI AND MANAMELA WERE NOT CULPABLE
The Criminal Court, District Court (EDPA) ruled on 6/10/2010 that Manamela and MEBHI
co-defendants were liable for DK's death because of "failure to ensure that at-risk child­
ren receive medical care and collect immunization records, and file notes in the charts':"
See United States v. Manamela, 463 F. Appx 127, 130. However this claim was refuted by thed
Civil Court within the same Third Circuit earlier on September 9, 2009, and it is discussed
herein infra.
These very at-risk children within the City of Philadelphia/County presented serious
social behavioral problems that led to placement for some of them outside their homes, and
some given up for adoption. As a result, a greater number, if not some of these children's
families were mandated by Philadelphia Family Division and Truancy Prevention Courts to par­
ticipate in SC0H for a better outcome. These children or cases were viewed as "pendency
cases" pursuant to 42 PA Cons. Stat. Ann §6302.
However, in this instant case before this Honorable Court, the government brought in
two medical experts as witnesses to bolster its case-in-chief, that is the health care
fraud claim. In their presentation [the experts] of their medical analysis of DK's death,
they failed to show SCOH and health care services, and show Manamela's direct role in her
death. Also, failed to show or link other MEBHI social workers to her death. All they had to
say was that she died of starvation, neglect, including bed-sores that were infested with
maggots.
Furthermore, the two medical experts failed in their expert testimony to "prove beyond
a reasonable doubt" (emphasis mine), that MEBHI SCOH social workers assigned to Kelly/Washington Family case [Julius Murray and Christian Nimpson] and Manamela were responsible for
DK's death.

See Brief Volume II Pretrial Motions (2010) pg. 78. In this very case, the

Government argues that "but-for" failure to provide medical care and collect immunization
records and file in the charts [family charts] MEBHI is culpable for her death. See Barrage
fibnfca i.1£4 S./
------25.

V. United States, 571, 134 S. Ct. 187 L. Ed. 2d 715, 2014 US LEXIS 797 (Jan 27, 2014).
The government according to Manamela, was bold in its assertion that "This is homicide
on the party of MEBHI. This is the core of the case. We will treat it as such." See Appendix
to Brief Volume II Pretrial Motions, pg. 47-48. Further, the government argued that "her
[Danieal Kelly] death is not our whole case as the Court points out, its a very significant
core of the case" (emphasis mine). Id. In essence,si,the Government was charging Manamela, et
al. with murder or homicide under 18 USCS §1111 without proving its claim beyond a reasonable
doubt. In this very case, the District Court lowered the "beyond a reasonable doubt standard"
so that the Government could obtain a conviction.
In this instant case before the Court, the Government murder/homicide claim against Mana­
mela, et al. was based on erronous legal assumptions that: (l) because of MEBHI being charged
with "Monitoring Kelly/Washington family", MEBHI therefore had custody of DK and all other
at-risk children under its SCOH program; (2) because of that erronous reasoning and assump­
tion, MEBHI was in DK's life due to her medical condition - cerebral palsy - meaning MEBHI
was contracted to provide medical care; and (3) because of MEBHI charged with monitoring
compliance as to medical care, collecting immunization records both from

school and health

care centers/primary care physicians, among many indirect services or advocacy-related tasks,
MEBHI was culpable forrher death and above all, was a health care provider program.
MEBHI*S CUSTODIAL ROLE TO AT-RISK CHILDREN
MEBHI as a state-agent pursuant to Title 555PA Code §3130.12(c)(1) and 42 PA Cons,. .Stat.
Ann

§6302, had no custody of all at-risk children under comprehensive family based services

contract with DHS/CYD. Therefore, MEBHI had no special relationship with all clients under its
supervision!sincluding DK or Kelly/Washington family. tThe special relationship exception app­
lies "when the state enters intooa special relationship with a particular citizen [and] fails,
under sufficiently culpable circumstances, to protect the health and safety

of the citizen

to whom it owed an affirmative duty." Morse v. Lower Merrion School District, 132 F.3d 902,
907 (3d Cir. 1997). Quoting DR Middle Bucks Area Vocational Tech School, 972 f.2d 1364, 1369
(3d Cir. 1992). Ihe Third Circuit has pbserved that:."[tjhe affirmative duty to protect arises
not from the state s knowledge of the individual's predicament or from its expressions of in26.

tent to help [her], but from the limitation which it has imposed on [her] freedom to act on
[her] own behalf." _______
Deshaney, 489 US at 200. The special relationship exception requires the
existence of custodial relationship. Sanford v. Stiles, 456 F.3d 298, 304 n.4 (2d Cir. 2006)
("A deprivation of liberty through, for example, incarceration or institutionalization is
required.") (internal quotation marks omitted).
INCONGRUENT RESULTS: IN SAME CASE WITHIN SAME CIRCUIT
In the Appeals Court opinion filed 8/18/2015, in United States . Manamela, 615 Fed. Appx.
151 (3d Cir. 2015), the Court [criminal case] held that: "We concluded that SCOH service
providers..,"made available" a medical item, benefit, or service because they were integral
to ensuring that at-risk children received medical care by acquiring proof of such care
(immunization records and records of visits to doctors) and providing reports of that medical
care-to the city." Furthermore, "the fraud committed by Manamela resulted in at-risk child­
ren not receiving the medical care that MEBHI represented the children as having received,
including the care to the 14-year old girl whose death triggered the initial investigation
of MEBHI. Manamela's actions are an example of the quintessential type of fraud that is often
the bases for conviction under §1347." Honestly, Manamela had no direct contact with Kelly/
Washington family, he was not a case worker or supervisor on this case, and this case was not
a health care/medical care one under DHS/MEBHI SCOH contract.
The opinion of the Appeals Court for the Third Circuit on this case is contrary to the
opinion in the Estate of Kelly exrel Gafni v. MEBHI, (2009), where the civil court held that
"DHS's decision to involve MEBHI in their supervision of the Kelly family did little to pro­
tect Danieal from neglect and abuse in her mother's home.. Nevertheless /the objectors have
alleged no fact which shows that the appointment of MEBHI "created" the danger which caused
Danieal's death or rendered [her] more vulnerable to danger."
The civil court made it clear that "Aside from contracting with MEBHI to monitor the
Kelly family, no action was taken by DHS to ensure that Danieal received necessary care and
medical attention", emphasis added. See Estate of Kelly exrel Gafni v. MEBHI, 2009 US Dist.
LEXIS 82385 (EDPA 9/9/2009 3d Cir.). This simply means that,..MEBHI as a state-agent and family
support services provider under the Contract with City of Philadelphia had no capability to
provide health care services, and was not responsible for providing medical care to Kelly/
Washington family and other at-risk children under Contract.
The Third Circuit had held that foster children have a special relationship with the
State because the State takes legal custody. Nicini, 212 F.3d at 808. Conversely, "where the
State takes only temporary custody of a child, no special relationship exists." Castobile
Fulginity v. City of fhiladelphia, 719 F. Supp. 2d 521, 526 (3d Cir. 2010). (Noting that there
was no court order transfering custody of the child to DHS). MEBHI SCOH had no custody of atrisk children under its supervision.
27.

In this civil case, the Third Circuit has repeatedly emphasized that "liability under
state-created danger doctrine "requires affirmative state action"; mere failure to protect
an'individual against violence, does not violate.the Due Process clause." Bright, 443 F.3d
at 284 (quoting Deshaney, 489 US at 197); see also Ye v. United States, 484 t°3d 634, 638
(3d Gir. 2007). The Third Circuit "has read Deshaney primarily as setting out a test for
physical custody." Also, the Third Circuit concluded that Dk was never removed from her
parents' custody and that she was in her mother's custody at the time of her death. See
Bennett v. City of Philadelphia, No. 03-5685, 2003 US Dist. LEXIS 23897, 2003 WL 2309884, at
6 (EDPA Dec. 2003) (dismissing the plaintiff's special relationship claims because the facts
did not allege physical custody by the Government).
The fact that DK was under the supervision of DHS and MEBHI does not change this find­
ing. LtiOurt reiteratedj. bee Estate ot Kelly exrel Gatm v. MEBHI, (.2009); Bennett v. City
of Philadelphia, 499 f.3d 281 (3d Cir. 2007); Deshaney v. Winnibago County Department of
Social Services, 489 US 189, 109 S. Ct. 998, 103 L. Ed. 2d 249 (1959); Bright v. Westmore­
land County, 443 F.3d 276. (3d Cir. 2003); and Weston v. City of Philadelphia, (3d Cir. EDPA
5/16/2014); See also Castle Rock v. Gonzalez, 545 U.S. 748 (2005)
MEBHI and SCOH social workers [Murray and Nimpson] have made efforts in scheduling a
meeting with DHS social worker.* on this case - Laura Sommerer. The meeting was about Reco­
mmended Family Preservation Program (FPF) - transfering the Kelly/Washington family care
to FPP for more intense intervention because of multiple problems family was faced with. The
DHS social worker was a no-show for this meeting. Also, Laura Sommerer failed to take Ms.
Kelly (mother) and DK for a scheduled medical appointment - did not show up and never explain­
ed why she was a no-show.
The claim that Manamela is culpable for DK's death including other MEBHI SCOH social
workers must be rejected by this Honorable Court. The fact that the Third Circuit has dis­
missed this claim in a separate Federal Court civil lawsuit against MEBHI and City after
testing for physical custody under Deshaney, Pennsylvania and Third Circuit state-created
danger doctrine proves that the Government's claim is flawed because MEBHI is not a health
care service provider. Therefore, Manamela asks this Court to.correct this "manifest injus­
tice" inherent in this case.
Manamela argues that it is because of this very case that the health care fraud charge/
claim was trumped up; and ex post facto clause violation of his Fifth,- Sixth, Seventh, Tenth,
and Fourteenth Amendment Rights; and ultimately his Constitutional and Substantial Rights.
28.

A violation that places him squarely in the hands of Immigration and Nationality Services
(INS) pursuant to 8 USCS §1227(a)(2)(A)(iii); 8 USCA §1101(a)(43)(m); 18 USC §16, and removal
under 8 USCA §237(a)(2)(A)(iii) of Immigration and Nationality Act (because the Government's
claim that "this is a homicide on the part of MEBHI" without proof beyond a reasonable
doubt) and ultimately deportation based on ex post facto clause violation of US Cons. Art.
1, §9, Cl. 3; and Art. 1, §10, Cl. 1; distortion of MEBHI-DHS SCOH Contract; and mischaracterization of its role and function as a Pennsylvania State-agent pursuant to Pennsylvania
Child Welfare Services Agreement Contrast with City of Philadelphia/County.
Ill
DISTRICT COURT'S FAILURE TO REVIEW EXCULPATORY EVIDENCE DECLARED AS HAVING A
BEARING ON THIS CASE UNDER PENALTY OF PERJURY PURSUANT TO TITLE 28 USC §1746
AND CLAIMED "LACK OF JURISDICTION", IS EX POST FACTO CLAUSE VIOLATION AND
ABUSE OF DISCRETION
Manamela has presented three service descriptions and contract requirements for Compre­
hensive Family Based services and other documents to the NJ District Court pursuant to 28
USC §1746 as evidence and proof that MEBHI [pursuant to Title VII of PA Welfare Code; Title
55 PA Code §3130.12(c)(l); and 42 PA Cons. Stat. Ann §6302, in compliance with Pennsylvania
Child Welfare Services Agreement Contract - 62 PS §701-708 between the City of Philadelphia
and Commonwealth of Pennsylvania] was not a health care provider - challenging the health
care fraud [18 USC §1347] state imposed on it as a Title IV-B non-medicare/medicaid service­
able family support service provider to at-risk children and their families.
The Court granted Manamela's Motion and ordered the Government to release all relevant
documents indicated by Manamela as "Brady Materials" having a bearing on his case, indicated
in the Declaration/Affidavit presented to the Court pursuant to 28 USC §1746. However, the
Court in accomodating the Government's Motion to Dismiss under Rule 12 (b)(6), struck a compromise with the government at M&namela's expense not to release these very documents. Hence,
the District Court, denied him Evidentiary Hearing. The Government's argument was that Mana­
mela has been found guilty by the District Court (EDPA) and Court of Appeals for

the Third

Circuit, therefore, his Actual Innocent 2241 Petition must be viewed as a 2255 disguise. A
Ruling in contrast with Felken v. Turpin, 518 US 651, 116 S.Ct. 2333, 135 L.Ed. 2d 827 (1996).
29.

Under Fed. R. Crim. P.: Rule of Proceedings under 28 USC §2254, Rule 8 Evidentiary Hear­
ing, if dismissal has not been ordered, the Court must determine whether an evidentiary hear­
ing is required. This determination is not to be made upon review of the answer, the trans­
cript and record.; of State Court proceedings, and if there is no one, the expanded record.
As the United States Supreme Court noted in Townsend v. Sain, 372 US 293, 319 (1963):
"Ordinarily [the complete state-court] record - including the transcripts of testimony
(or if unavailable, some adequate substitute, such as a narrative record), the pleadings,
court opinions, and other pertinent documents - is indispensible to determining whether the
habeas applicant received a full and fair state court evidentiary hearing resulting in rel­
iable findings."
In this instant case before this Honorable Court, Manamela did not receive a full and
fair evidentiary hearing because most of the documents having a bearing on this case were
witheld from the District Court (EDPA)__that sentenced him to 168 months in prison. When Mana­
mela filed a Motion for Discovery, the Government filed a Motion to Seal Evidence, and was
granted its wishes-;- that no documents were released to Manamela. Had these very documents
listed in "Brady Materials?1 and "Narrative of Brady Material" (Appendices E and F) including
the three contracts had been reviewed (especially fairness contract), there is a great pro­
bability that the Government's case-in-chief (health care fraud), wire fraud and conspiracy
charges would have been, rejected by the jury, and Manamela et al. would.have been acquited.
See Brady v. Maryland. 363 US 87, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963).
"Subdivision(a) comtemplates that all of these materials if available, will be taken
into account. This is especially important in view of the standard set down in Townsend for
determining when a hearing-in the federal habeas proceeding is mandatory. The appropriate
standard... is this: where the facts are in dispute, the federal court in habeas corpus must
hold an evidentiary hearing. If the habeas applicant did not receive a full and fair eviden­
tiary hearing.in a state court, either at the time of trial or in collateral proceeding."
3/3 US at 312.
The circumstance under which a federal hearing is mandatory are now specified in 28 USC
§2254(d). The 1996 amendment places the burden on the petitioner, when there has already been
a state hearing, topshow that it was not fair or adequate hearing for one or more of the
specifically enumerated reasons, in order to force a federal evidentiary hearing. Since the
function of an evidentiary hearing is to try issues of fact (372 US at 309), such a hearing
is unnecessary when only issues of law are raised, see eg., Yeaman v. United States, 325 F.2d
293 (9th Cir. 1963).
30.

Under the Act of Congress of 1867(14 Stat. 385), now incorporated in 28 USC §2241 et
seq., "United States District Courts have jurisdiction to determine whether a prisoner has
been deprived of liberty in violation of Constitutional Rights, although the proceedings resulting in incarceration may be unassailable on the face of the record. Under the Act, a variety of allegations have been held to permit challenge of convictions on facts - dehors the
record." See United states v. Hayman, 342 US 205, 96 L. Ed. 232, 72 S. Ct. 263 (1952).
In Mooney v. Holohan, 294 US 103, 79 L. Ed. 791, 55 S. Ct. 340, 98 ALR 406 (1935)
(knowing use of perjured testimony by prosecution), the Supreme Court stated that "The denial
by a State of any judicial process by which a conviction obtained through the admitted or
proved use by the state, knowingly or unknowingly, of perjured testimony, and the suppression
of impeaching evidence, may set aside, is deprivation of liberty without due process of law
violation of the Fourteenth Amendment." ]
.i in.
In this instant case, the use of Brian Clappier and Trina Jenkins, both DHS workers
claiming MEBHI was charged with providing medical care/services for at-risk children was
false/perjury and contrary to DHS Contract requirements, including Nikia Chambers' already
discredited false allegations against her former employer, MEBHI, by City Auditorsofrom
Contract Administration and Program Evaluation (CAPE) in 2003 is blatant prosecutorial
misconduct.
STANDARD OF REVIEW
"We exercise plenary review over an order’granting a motion to dismiss under Federal
Rules of Civil Procedure 12(b)(6)", Maio v. Aetna, Inc., 221 f.3d 472 481 (3d Cir. 2000). To
survive a motion to dismiss the plaintiff must plead "factual content that allows the defen­
dant is liable for the misconduct alleged." Ashcroft v. Iqbal, 556 US 662, 678, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009). A complaint must do more than allege a plaintiff's entitle­
ment to relief, it must "show" such an entitlement with facts, Fowler v. UPMC Shadyside, 578
F.3d 203, 211 (3d Cir. 2009). "Factual allegations must be enough to rise above the speculative level", see Bell Atlantic Corp. v. Tombly, 550 US 544, 555, 127 S. Ct. 1955, 167 L. Ed.
2d 929 (2007). See factual documents considered by Manamela impeaching evidence witheld from
the Court by the Government and listed in "Brady Materials" and "Narrative of Brady Materials"
presented to NJ District Court including authentic documents - Contracts and others describ­
ing SCOH and DHS/CYD functions, including those documents in Government possession since
October 2006 submitted to AUSA Barbara Rowland by defendant in person. Rule 16(a) requires
the Government to disclose documents favorable to defense/or defendant; but in this case, the
Government chose not to provide them - for fear of losing the case. See Brady v. Maryland,
and see United States v. Si, 343 F.3d 1116, 1122 (9th Cir. 2003). ("To prove a Brady violas
tion, defendant must show that the Government witheld material exculpatory evidence.") "Fai­
lure of the Government to disclose information useful only for impeachment however mandates
reversal only if defendants demonstrate that undisclosed evidence probably would have resul­
ted in acquital." See United States v. Martins, 648 F.2d 367 (6/19/1981).
Manamela has demonstrated many times that MEBHI SCOH program had nothing to do with .
31.

health care services; he even provided the courts with City Contracts with his company, but
because of politics inherent in this case, the courts ignored him. The City of Philadelphia's
DA's office under Attorney Seth Williams is responsible for fabricating the health care fraud
charges against Manamela, MEBHI, et al. with the help of DHS Commissioner Cheryl RandomGarner, et al., including Philadelphia Police Department.
"A State act which deprives defendants of an existing right, for past misconduct and
without judicial trial, partakes of the nature of a bill of pains and penalties, and is sub­
ject to the Constitutional inhibition against the passage of bills of attainder." Cummings
v. Missouri, 4 Wall 217, 18 L. Ed. 356, and ex parte Garland, 4 Wall 333, 18 L. Ed. 366.
"To ascertain whether statute imposes punishmnet, US Supreme Court has instructed that
Court should pursue three-part inquiry, that is: (l) whether challenged statute falls within
historical meaning of legislative punishment, (2) whether statute, viewed in terms of the
type and severity of burden imposed, reasonably can be said to further non-punitive legis­
lative purposes, and (3) whether legislative record evinces Congressional intent to punish;
Court had applied each of these criteria as independent, though not necessarily decisive in­
dicator of punitiveness." Foretich v. United States, (2003 App DC) 359 App. DC 54, 351 f.3d
1198 (2003).
"Ihe policy considerations which support a prohibition against ex post facto application
of a criminal statute are also applicable to judicial decisions which effect the interpreta­
tion of a criminal statute. In both cases, it is clearly undesirable to punish individuals
for act which, at the time they were performed, were not within the reach of a criminal
statute." See James v. United United States, 366 US 213, 247-248, 81 S. Ct. 1052, 1070-1071,
6 L. Ed. 2d at 246, 269-270 (1961) (1974 US App. LEXIS 8); See also Bouie v. City of Columbia,
378VUS 347 84 S. Ct. 1697, 12 L. Ed. 2d 894 (1964); Douglas v. Buder, 412 US 430, 93 S. Ct.
2199, 37 L. Ed 2d 52 (1973); and United States v. Marcus, (2010 USj 130 S. Ct. 2159, 176 L.
Ed. 1012, 560 US 258, 2010 US LEXIS 4163.
"Judicial opinion which changes necessary proof by requiring less testimony than law
requires at the time of offense may have effect of ex post facto law", Bowyer v. United States,
(1980 Dist. Col. App.) 422 A 2d 973.
Manamela's case did indeed violate ex post facto clause, because it did alter definition
of the statute applicable to MEBHI's functions and role in at-risk children's lives, from
Comprehensive Family Based Services to health care service provider without sufficient evi­
dence - and the courts did not even care about reading the language of the Contracts, which
in this case are nexus between City of Philadelphia CYD/DHS and MEBHI.
"A district court in deciding a motion under Fed. R. Civ. P. 12(b)(6), is required to
accept as true all factual allegations in the complaint and draw all inferences from the facts
alleged in the light most favorable to the plaintiff. Moreover, in the event a complaint
fails to state a claim, unless amendment would be futile, the district court must give a
plaintiff the opportunity to amend his complaint. The Standard of Review for a dismissal
under Fed. R. Civ. P. 12(b)(6) is de novo. This standard requires an appellate court to review
the district court's order anew and without any deference." See Alston, 363 F. 3d 229; 2004
US App LEXIS 6345 (3d Cir. 2004).
--------- --32.

On a Fed. R. Civ. P. 12(b)(6) motion, the facts alleged must be taken as true and a com­
plaint may not be dismissed merely because it appears unlikely that the plaintiff can prove
those facts or will ultimately prevail on the merits. However, in this very case, the Dis­
trict Court granted the Government's Motion to Dismiss without ever giving Manamela an oppor­
tunity to amend his complaint. Also, the Court failed to convene evidentiary hearing given
the inconsistent facts presented against MEBHI.
"A district court abuses its discretion when it fails to apply the appropriate legal
standard, follows improper proceedings or relies upon clearly erronous findings of facts."
See United States v. Miller, (1985 CA 3 PA). See Marshall v. Garrison, 659 F.2d 440 (1981 CA
4- VA); United States v. McCoy, 410 F. 3d 124, 131 (3d Cir. 2005); United States v. Travillion,
759 F. 3d 281, 289 [3d Cir. 2014).
----------------------------------------Given'the facts in this case before the Court, regarding the Contract - Comprehensive
Family Based Services Requirements between the DHS and MEBHI in compliance with Pennsylvania
Child Welfare services Agreement Contract - 62 PS §701-708 between the City of Philadelphia
and Commonwealth of Pennsylvania, Manamela asks this Honorable Court to reverse the Third
Circuit rulings regarding his case; because this has nothing to do with health care fraud it is based on deliberate misinterpretation of Title IV-B statute under state laws for con­
viction's sake. Also, it violates the Tenth Amendment as to separation of powers.
The Supreme Court has stated that: "powers not delegated to the United States by Cons­
titution nor prohibited by it to the States are reserved to the States or to the people."
72 L. Ed. 2d 956. See United States v. Carol Anne Bond, 581 F. 3d 128, 139 (3d Cir. 2009)
180 L. Ed. 269, 564 US 211 Bond v. United States. This is an ex post facto clause violation
of the United States Constitution.!, US Cons. Art. 1, §9, Cl. 3; and Art. 1, §10, Cl. 1.
See Fry v. United States, (1975) US 542, 44 L. Ed. 2d 363, 95 S. Ct. 1792.
"A defendant's challenge to a
requirement, because incarceration
and redressable by invalidation of
Spencer v. Kemna, 523 US 1, 7, 118

conviction and sentence satisfies the case-or-controversy
constitutes a concrete injury, caused by the'.conviction
the conviction." L. Ed. Digest: Courts §237; See also,
S. Ct. 978, 140 L. Ed. 2d 43 (1998).

In its recent decision in Bruce v. Warden, Lewisburg, USP, 868 F.3d 170 (3d Cir. 2017),
the Third Circuit Court of Appeals set forth the two conditions that, a federal prisoner with­
in the Third Circuit must satisfy post-Dorsainvil in order to have his case fall within
§2255’s saving clause.
"First, a prisoner must assert a 'claim of actual innocence' on the theory that "he is
being detained for conduct that has subsequently been rendered non-criminal by an intervening
Supreme Court decision" and our own precedent construing intervening Supreme Court decision -

33.

.

in other [2019 US Dist. LEXIS 12] words, when there is a change in statutory case law that .
applies retroactively in case on collateral review." Bruce, F.3d at 180 (emphasis added)
(quoting United States v. Tyler, 732 F.3d 241, 246 (3d Cir. 2013). which quoted Dorsainvil.
119 F.3d at 252).
--------------."[S]econd, the prisoner must 'otherwise barred from challenging the legality of the con­
viction under §2255."' Id. (quoting Tyler, 732 F.3d at 246). "Stated differently, the priso­
ner has 'had no earlier opportunity to challenge his conviction for a crime that an inter­
vening change in substantive law may negate.'" Id. (quoting Dorsainvil, 119 F.3d at 251).
In its landmark decision in Dorsainvil, 119 F.3d 245 (3d Cir. 1997), the Third Circuit
Court of Appeals recognized the one circumstance under which it has found §2255's remedy to
be inadequate of ineffective since AEDPA amended §2255 in 1996 to include a one year statute
of limitations and prohibition against the filing of second or successive motions. The peti­
tioner in Dorsainvil was convicted inter alia of using a gun in connection with a gun crime
under 18 USC §924(c)(l). He was convicted notwithstanding that he did not "use" the gun. It
was merely present in the car from which the drugs were to be bought. After he had exhausted
his appeals and litigated his first §2255 Motion, the Supreme Court in Bailey v. United States,
516 US 137, 116 S. Ct. 501, 133 L. Ed. 2d 472 (1995) construed the criminal statute under
which Dorsainvil was convicted (18 USC §924(c)(l)) to exclude from ambit of the statute mere
presence of a gun at a drug crime, thus arguably rendering him actually innocent of the
crime of using a gun in connection with a drug offense,
r f.After the Supreme Court issued Bailey, Dorsainvil applied to the Court of Appeals for
authorization to file in the District Court a second or successive §2255 Motion. The Court
had no choice but to deny his request because he could not satisfy AEDPA's [2019 US Dist.
LEXIS 9] gatekeeping requirements for the filing of a second successive §2255 Motion. That
was because the decision in Bailey was one of statutory construction and, therefore, did not
constitute "a new rule of constitutional law... that was previously unavailable[.]" Dorsainvil,
119 F.3d at 247-48 (quoting 28 USC §2255 (now at §2255(h)). Under these circumstances, the
Court of Appeals determined that Dorsainvil had established that §2255 was "inadequate, or
ineffective" to test the legality of his detention and as a result, he could bring his claim
in a §2241:habeas corpus petition.
A similar case

involv[ing] the availability of collateral relief from a federal criminal
34.

conviction based upon an intervening change in subatantive law" came before the Supreme
Court in Davis v. United States, 417 US 333, 334, 94 S. Ct. 2298, 42 L. Ed. 2d 109 (1974).
In that case, the Court stated that a Supreme Court decision interpreting a criminal statute
that resulted in the imprisonment of one whose conduct was not prohibited by law "presents
exceptional circumstances where the need for remedy afforded by the writ of habeas corpus is
apparent." Id. at 346 (internal quotation marks omitted).
The Court held that "if [petitioner's] contention is well taken, then [his] conviction
and punishment are for an act that the law does not make criminal. There can be no [2019 US
Dist. LEXIS 10] room for doubt that such a circumstance inherently results in a complete
miscariage of justice and present(s) exceptional circumstances that justify collateral relief
under §2255." Id. at 346-47 (internal quotation marks omitted). See also, United States v.
Addonizio, 442 US 178, 186-87, 99 S. Ct. 2235, 60 L. Ed. 2d 805 (1979) (discussing Davis
and observing that a refusal to have vacated his sentence "would surely have been a 'complete
miscarriage of justice' since conviction and sentence were no longer lawful").
A §2241 petition for habeas corpus on behalf of a sentenced prisoner attacks the manner
in which his sentences is carried out or the prison authorities' determination of its dura­
tion [which was the position the Third Circuit held before Bruce]. To prevail,

§2241 peti-

tioner must show that he is "in custody in violation of the Constitution or laws or treaties
of the United States." See 28 USC §2241(c)(2012). By contrast, a Motion to Vacate or correct
a sentence pursuant to 28

USC §2255, provides the primary means of collateral attack on a

federal sentence.
In filing a "2241 petition", Manamela was well aware that section 2255 does contain
"savings, clause" in subsection(e), which acts as a limited exception to these general rules.
It provides that "Court may entertain a petition for a writ of habeas corpus challenging
Federal criminal conviction if it concludes that filing a motion to vacate, set aside, or
correct sentence pursuant to §2255 is inadequate to challenge a prisoner's detention." See
28 USC §2255(e). However, he may invoke the "savings clause" to address errors occuring at
trial or sentencing in a petition filed pursuant to §2241.
In consideration of the aforementioned and the claims raised by the petitioner in this
case, §2255 is inadequate and ineffective to test the legality of conviction due to:
"(l) at the time of the conviction, settled law of the Circuit or Supreme Court estab­
lished the legality of the conviction; (2) subsequent to the prisoner's direct appeal and
first §2255 motion, the substantive law changed such that the conduct of which the prisoner
was convicted is deemed not to be criminal; and (3) the prisoner cannot satisfy, gate-keeping
provisions of §2255 because of the new rule is not one of constitutional law." See In re
Jones, 225 F.3d 328, 333-34 (4th Cir. 2000).
As indicated above in Bruce, the Third Circuit Court of Appeals set forth the two condi35.

tions that a federal prisoner confined within the Third Circuit must satisfy post Dorsainvil
in order to have his case fall within §2255's saving clause. In this instant case as to the
above cited criteria set, specifically (1), Manamela also relied on this law because while
he was undergoing trial in his criminal case, the Estate of Kelly Family filed a civil action
suit in the matter concerning the deceased, DK. See Estate of Kelly exrel Gafni v. MEBHI,
2009 US Dist. LEXIS 82385, Civil.Action No. 08-3700 (EDPA 9/9/2009). In this civil action
suit, the District Court held that "aside from contracting with MEBHI to monitor the Kelly
family, no action was taken by DHS to ensure that DK (name redacted) received necessary care
and medical attention" (emphasis mine). This simply means under Contract with City of Phila­
delphia pursuant to Title VII of PA Welfare Code; Title 55 PA Code §3130.12(c)(1); 42 PA Cons.
Stat. Ann §6302, in compliance with Pennsylvania Child Welfare Services Agreement Contract 62 PS §701-708 and pursuant to Title 40 PS (Health care statute), MEBHI was not a health care
provider, and that is also reflected in the Contract(s).
Furthermore, the District Court [civil action] held in its findings and conclusion that:
"Manamela's company MEBHI of no wrong-doing or contributed to the death of DK".,“Specifically,
the Court-'held that "according to the facts alleged, DHS's decision to involve MEBHI in
their supervision of the Kelly family did little to protect [the deceased] from neglect and
abuse in her mother's home."
Nevertheless, the objectors [Kelly family members] have alleged no fact which shows that
the appointment of MEBHI "created" the danger which caused the deceased's death or rendered
her more vulnerable to danger, (quoting Bennet v. City of Philadelphia, 499 F. 3d 281, 287
(3d Cir. 2007)).
According to Manamela, due to the facts in this case, the civil case was settled during
the commencement of his trial in the criminal court, and subsequently because of Circuit
Law [which the criminal court undermined], the instant petition for a writ of habeas corpus
pursuant to Title 28 USCS §2241 appeared to be the proper avenue to raise the instant com­
plaint under "Actual. Innocence Clause". See Martin v. Perez, 319 F.3d 799, 804-05 (6th Cir.
2003).

36.

REASONS FOR GRANTING THE PETITION
A: United States Court of Appeals for the Third Circuit has decided an important federal
question in a way that conflicts with relevant decisions of this Court. In fact, the United
States Court of Appeals, in its denial of Manamela's Actual Innocent Motions, has virtually
perpetuated ex post facto laws, laws prohibited by the United States Constitution. Appeals
Court (Third Circuit) has failed to correct the "manifest injustice" inherent in this case
the Government's claim that Manamela's company MEBHI is a "health care benefit, item, or services provider", whereas under Pennsylvania Child Care Welfare Services Laws indicates that
it was not, but was a family support service under Contract with City of Philadelphia. See
Landgraft v. US 1 Filmprods, 511 US 244, 114 S. Ct. 1483, 128 L. Ed. 2d 299 (1994).
The United States Court of Appeals in its review of Manamela's Petition(s) post-convic­
tion in 2010, 2012, 2015, and 2020, has continued to ignore, avoid, and look into the nexus
between City of Philadelphia DHS and MEBHI. The. nexus which in this case is the Contracts
(emphasis mine) which the sentencing court (EDPA) and NJ District Courts have in their possessions but considered irrelevant. The failure to read and review these Contracts and interpret as written was in itself a plain error under 52(b).

The Courts misconstrued the Con-

tracts between the City and MEBHI as a health care service provider, a reversible wrong based
on misinterpretation of State and federal Statutes regulating MEBHI SCOH.
Under Pennsylvania Child Welfare Services Laws pursuant to Article VII of PA Public Wel­
fare Code and Title 55 of the Pennsylvania Code 55! PA Code §3130.12(c)(1) and 42 PA Cons.
Stat. Ann §6302, MEBHI is and was never a health care benefit item, service provider to atrisk -children under its supervision. MEBHI was neither a Home Health Care Services provider
pursuant to 42 USC §201 et seq.; 1320d-2; and 299b. Manamela believes that if State of Penn­
sylvania wanted to convict him for the crimes alleged by the Government supra, the State
would have done so under Title 40 P.S. § Part 1 to 5; Title'133 P.S. §1-8; and Title 53 P.S.
§ Part 1-Part 4 respectivelyy The Federal Government's involvement in this case usurped the
Commonwealth of Pennsylvania's authority/power and violated the United States Constitution.
Also, this very case, violated Manamela's Due Process under Fifth and Fourteenth Amendments.
37.

See Yates v„.United States, 135 S. Ct. 1074, 1081-82 (2015) (interpretation of Statutes).
MEBHI.'had no custody of all at-risk children under its supervision. The Third Circuit
tested this case (civil action court) for state-created-danger purposes; and the outcome of
its findings was that MEBHI had no custody over DK and other at-risk children under its
supervision, and that DK died at home in her mother's custody. However, the Criminal Court
charged Manamela with "homicide" without applying the [18 USCS §1111] statute, and this was
to boost its case-in-chief claim and for conviction's sake. The death of DK and health care
fraud given her medical condition - cerebral palsy, helped sway the juries' minds.
The New Jersey District Court claim that it lacked jurisdiction in this case clearly
does contradict US Const. Art. Ill Section 2, and 28 USC §1331 because all issues in Mana­
mela 's case derive from Federal Laws and Statutes and State Laws. The Court's claim is a
dereliction of judicial duty and abuse of discretion. Also, it is a way of avoiding answer­
ing Constitutional questions posed in this case.
The impact of this case on social work service delivery is frightening and vast. For the
mere fact that faith-based and non-medicare/medicaid family support programs are charged
with collecting medical records and immunization records from treatment centers and by that
very fact become health care service providers is terrifying and un-Gonstitutional. This
case passed Strickland-test without a doubt - ineffective assistance assistance of counsel
(IAC). See Strickland v. Washington,- 466 US 668 (1984).

38.

CONCLUSION
For the foregoing reasons, Manamela respectfully asks this Honorable
Court to reject the Government's claims against him and MEBHI; and reverse
and remand for the District Court to permit discovery, and hold evidentiary
hearing to determine whether Manamela was a health care service provider
and if the Constitutionality of his conviction was ex post facto Clause
Violation of the United States Constitution Article 1, Section 9, Clause 3;
and Article 1, Section 10, Clause 1.
The petition for a writ of certiorari should be granted.

Respectfully submitted,
C

Solomon Manamela
Reg. No.: 63850-066
Date: OeWoe-v ^3., 2.0^0.
*

39.

